 AUDIT OF THE OFFICE ON VIOLENCE AGAINST

WOMEN GRANTS AND COOPERATIVE AGREEMENT

 AWARDED TO THE NEW MEXICO COALITION OF

     SEXUAL ASSAULT PROGRAMS, INC.

        ALBUQUERQUE, NEW MEXICO



           U.S. Department of Justice

         Office of the Inspector General

                  Audit Division


          Audit Report GR-60-14-001

                 October 2013





      REDACTED – FOR PUBLIC RELEASE 

   AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

   GRANTS AND COOPERATIVE AGREEMENT AWARDED TO

    THE NEW MEXICO COALITION OF SEXUAL ASSAULT

                   PROGRAMS, INC.

              ALBUQUERQUE, NEW MEXICO


                           EXECUTIVE SUMMARY*


      The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of three grants and one cooperative
agreement totaling $4,061,104 awarded by the Office on Violence Against
Women (OVW) to the New Mexico Coalition of Sexual Assault Programs,
Inc. (NMCSAP), as shown in Exhibit 1.

  EXHIBIT 1:	 GRANTS AND COOPERATIVE AGREEMENT AWARDED
              TO NMCSAP
                                            PROJECT         PROJECT
     AWARD NUMBER         AWARD DATE       START DATE       END DATE         AMOUNT
   2007-WR-AX-0085        09/10/2007       10/01/2007      09/30/2014      $ 2,437,510
   2010-WL-AX-0003        09/15/2010       10/01/2010      09/30/2015          988,000
   2010-SW-AX-0026        09/21/2010       09/01/2010      08/31/2012          235,607
   2011-EW-AX­
   K004 1                 09/21/2011       10/01/2011      09/30/2014         399,987
                                                                Total:    $4,061,104
  Source: The Office of Justice Programs’ (OJP) Grant Management System (GMS)

      Created in 1995, OVW administers financial and technical assistance to
communities across the country that are developing programs, policies, and
practices aimed at ending domestic violence, dating violence, sexual assault,
and stalking. NMCSAP, a private, non-profit organization, provides services
to professionals (medical, mental health, law enforcement, and social
services) that will assist them in offering appropriate services to victims of
sexual abuse. 2




      * The Office of the Inspector General redacted portions of Appendix IV of this report
because it contains information that may be protected by the Privacy Act of 1974, 5 U.S.C
§552(a) or may implicate the privacy rights of identified individuals.
       1
           Award Number 2011-EW-AX-K004 is a cooperative agreement.
       2
         Statements of mission and intent regarding OVW and the NMCSAP have been
taken from the agencies’ website directly (unaudited).
       The objective of the audit was to assess performance in the key areas
of grant management that are applicable and appropriate for the grants and
cooperative agreement under review. These areas included: (1) internal
control environment, (2) drawdowns, (3) grant expenditures, (4) monitoring
of subgrantees and contractors, (5) budget management and control,
(6) financial status and progress reports, (7) program performance and
accomplishments, and (8) post grant end-date activities. We determined
that property management, program income, and special grant requirements
were not applicable to these awards.

      We tested compliance with what we consider to be the most important
conditions of the grants and cooperative agreement. Unless otherwise
stated in this report, the criteria we audit against are contained in the OJP
Financial Guide, the 2012 OVW Financial Grants Management Guide, and the
award documentation. 3

      We examined NMCSAP’s accounting records, financial and progress
reports, and operating policies and procedures, and found:

      •	   the appearance of conflicts of interests and that fair hiring and
           contracting practices were not followed;

      •	   $91,051 in unsupported excess drawdowns for Grant

           No. 2007-WR-AX-0085;


      •	   $690,782 in unallowable contract and subgrant expenditures for
           Grant Nos. 2007-WR-AX-0085 and 2010-WL-AX-0003;

      •	   inadequate monitoring of contractors and subgrantees;

      •	   inadequate controls over timesheets and verifications of employee
           time prior to payment;

      •	   $73,359 in questioned payroll costs, including $54,683 in
           unsupported personnel expenditures, $5,730 in unallowable
           personnel expenditures, $9,154 in unsupported fringe benefit
           expenditures, and $3,792 in unallowable fringe benefit

      3
          In February 2012, OVW issued the 2012 OVW Financial Grants Management Guide,
which is applicable to the grants and cooperative agreement audited in this report. The
2011 OJP Financial Guide is applicable to the grants and cooperative agreement audited in
this report, and the OJP Financial Guide, October 2009 is applicable to Grant
Nos. 2007-WR-AX-0085, 2010-WL-AX-0003, and 2010-SW-AX-0026.



                                           ii
          expenditures for Grant Nos. 2007-WR-AX-0085,
          2010-WL-AX-0003, and 2010-SW-AX-0026, and Cooperative
          Agreement No. 2011-EW-AX-K004;

     •	   $375,939 in unallowable compensation for multiple full-time
          salaries paid to the same employees for Grant
          No. 2007-WR-AX-0085 and Cooperative Agreement
          No. 2011-EW-AX-K004;

     •	   $69,769 in unsupported other direct costs and $46,253 in
          unallowable other direct costs for Grant Nos. 2007-WR-AX-0085,
          2010-WL-AX-0003, and 2010-SW-AX-0026, and Cooperative
          Agreement No. 2011-EW-AX-K004;

     •	   expenditures were not properly authorized or accurately recorded
          and classified in the accounting records, receipts were not
          maintained, and general ledger entries were not detailed enough to
          trace expenditures to supporting documentation;

     •	   Federal Financial Reports were not accurate and supporting
          documentation was not maintained;

     •	   progress reports were not submitted timely, were generally not
          supported, and supporting documentation was not maintained; and

     •	   Grant No. 2010-SW-AX-0026 was not closed out in a timely
          manner and in accordance with the 2012 OVW Financial Grants
          Management Guide.

      This report contains 14 recommendations, which are detailed in the
Findings and Recommendations section of this report. Our audit objectives,
scope, and methodology are discussed in Appendix I.




                                     iii
                                    Table of Contents


INTRODUCTION1
  Background.......................................................................................1

  Office of the Inspector General Audit Approach......................................3

FINDINGS AND RECOMMENDATIONS................................................ 5

 Prior Audits .......................................................................................5

 Internal Control Environment ..............................................................7

 Drawdowns .......................................................................................9

 Expenditures ................................................................................... 10

   Contracts and Subgrants................................................................ 10

   Personnel Costs ............................................................................ 14

   Other Direct Costs......................................................................... 17

 Budget Management and Control ....................................................... 19

 Reporting ....................................................................................... 19

   Financial Reports .......................................................................... 19

   Progress Reports........................................................................... 22

 Program Performance and Accomplishments ....................................... 24

 Closeout Activity.............................................................................. 26

 Conclusion ...................................................................................... 27

 Recommendations……………………………………………………………………………………….29

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 31

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS............ 33

APPENDIX III - QUESTIONED COST DETAILS ................................. 34

APPENDIX IV – NEW MEXICO COALITION OF SEXUAL ASSAULT 

              PROGRAMS, INC. RESPONSE.................................. 40

APPENDIX V – OFFICE ON VIOLENCE AGAINST WOMEN’S RESPONSE

              .............................................................................. 56

APPENDIX VI - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

              SUMMARY OF ACTIONS NECESSARY TO CLOSE THE

              REPORT ................................................................. 60

   AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

   GRANTS AND COOPERATIVE AGREEMENT AWARDED TO

    THE NEW MEXICO COALITION OF SEXUAL ASSAULT

                   PROGRAMS, INC.

              ALBUQUERQUE, NEW MEXICO


                                INTRODUCTION*


      The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of three grants and one cooperative
agreement totaling $4,061,104 awarded by the Office on Violence Against
Women (OVW) to the New Mexico Coalition of Sexual Assault Programs,
Inc. (NMCSAP), as shown in Exhibit 1.

  EXHIBIT 1:	 GRANTS AND COOPERATIVE AGREEMENT AWARDED
              TO NMCSAP
                                            PROJECT          PROJECT
     AWARD NUMBER         AWARD DATE       START DATE        END DATE        AMOUNT
   2007-WR-AX-0085        09/10/2007       10/01/2007       09/30/2014    $ 2,437,510
   2010-WL-AX-0003        09/15/2010       10/01/2010       09/30/2015        988,000
   2010-SW-AX-0026        09/21/2010       09/01/2010       08/31/2012        235,607
   2011-EW-AX­
   K004 1                 09/21/2011       10/01/2011       09/30/2014        399,987
                                                                 Total:   $4,061,104
  Source: The Office of Justice Programs’ (OJP) Grant Management System (GMS)

Background

       Created in 1995, OVW administers financial and technical assistance to
communities across the country that are developing programs, policies, and
practices aimed at ending domestic violence, dating violence, sexual assault,
and stalking. OVW’s stated mission is to provide federal leadership in
developing the nation’s capacity to reduce violence against women, and
administer justice for and strengthen services to victims. Currently, OVW
administers 3 formula-based and 18 discretionary grant programs,
established under the Violence Against Women Act and subsequent
legislation.


      * The Office of the Inspector General redacted portions of Appendix IV of this report
because it contains information that may be protected by the Privacy Act of 1974, 5 U.S.C
§552(a) or may implicate the privacy rights of identified individuals.
       1
           Award Number 2011-EW-AX-K004 is a cooperative agreement.




                                             1

      NMCSAP, a private, non-profit organization, was created to fulfill the
requirements of the 1978 New Mexico Sexual Crimes Prosecution and
Treatment Act. This act mandates that the state provide services to
professionals (medical, mental health, law enforcement, and social services)
that will assist them in offering appropriate services to victims of sexual
abuse. This law outlines the necessity to provide ongoing training on a
variety of sexual abuse topics. It also mandates the provision of sexual
abuse evidence collection in order to offer victims the best possible
prosecution of their cases. Additionally, the act provides for payment of all
victims medical exams following an assault or the discovery of abuse.
Additionally, NMCSAP provides child sexual abuse prevention projects in
rural New Mexico, as well as, a Clearinghouse of literature and resources to
assist professionals in New Mexico in the assessment, prosecution, and
treatment of sexual abuse and assault cases. 2

      This audit includes three grants and one cooperative agreement made
under OVW’s discretionary grant programs. 3 Grant No. 2007-WR-AX-0085
was awarded under OVW's Rural Domestic Violence, Dating Violence, Sexual
Assault, and Stalking Assistance Program (Rural Program). The Rural
Program enhances the safety of children, youth, and adults who are victims
of domestic violence, dating violence, sexual assault, and stalking by
supporting projects uniquely designed to address and prevent these crimes
in rural jurisdictions. The Rural Program encourages collaboration between
victim advocates, law enforcement officers, pre-trial service personnel,
prosecutors, judges and other court personnel, probation and parole officers,
and faith- and/or community-based leaders to overcome the problems of
domestic violence, dating violence, sexual assault, and stalking and ensure
that victim safety is paramount in providing services to victims and their
children.

       Grant No. 2010-WL-AX-0003 was awarded under the Legal Assistance
for Victims Grant Program (Legal Assistance Program). The Legal Assistance
Program strengthens civil and criminal legal assistance for victims of sexual
assault, stalking, domestic violence, and dating violence through innovative,
collaborative programs. This program provides victims with representation
and legal advocacy in family, immigration, administrative agency, or housing
matters, protection or stay-away order proceedings, and other similar
matters. The Legal Assistance Program increases the availability of civil and

      2
         Statements of mission and intent regarding OVW and the NMCSAP have been
taken from the agencies’ website directly (unaudited).
      3
        For discretionary grant programs, OVW has the responsibility to create the
program parameters, qualifications, eligibility, and deliverables.




                                            2

criminal legal assistance in order to provide effective aid to victims who are
seeking relief in legal matters arising because of abuse or violence.

       Grant No. 2010-SW-AX-0026 was awarded under the State Coalitions
Grant Program. Statewide sexual assault coalitions provide direct support to
member rape crisis centers through funding, training and technical
assistance, public awareness, and public policy advocacy. Grants to State
Sexual Assault and Domestic Violence Coalitions Program funds may be used
to coordinate state victim services activities; and collaborate and coordinate
with federal, state, and local entities engaged in violence against women
activities.

       Finally, Cooperative Agreement No. 2011-EW-AX-K004 was awarded
under OVW’s Enhanced Training and Services to End Violence and Abuse of
Women Later in Life Program (Later in Life Program). Recognizing that
individuals who are 50 years of age or older who are victims of elder abuse,
neglect, and exploitation, including domestic violence, dating violence,
sexual assault, or stalking, face unique barriers to receiving assistance,
Congress created the Later in Life Program. The Later in Life Program
creates a unique opportunity for providing or enhancing training and services
to address these problems for this specific audience.

Office of the Inspector General Audit Approach

       The objective of the audit was to assess performance in the key areas
of grant management that are applicable and appropriate for the grants and
cooperative agreement under review. These areas included: (1) internal
control environment, (2) drawdowns, (3) grant expenditures, (4) monitoring
of subgrantees and contractors, (5) budget management and control,
(6) financial status and progress reports, (7) program performance and
accomplishments, and (8) post grant end-date activities. We determined
that property management, program income, and special grant requirements
were not applicable to these awards.




                                       3

      We tested compliance with what we consider to be the most important
conditions of the grants and cooperative agreement. Unless otherwise
stated in our report, the criteria we audit against are contained in the OJP
Financial Guide, the 2012 OVW Financial Grants Management Guide, and the
award documentation. 4 We tested NMCSAP’s:

      •	   internal control environment to determine whether the internal
           controls in place for the processing and payment of funds were
           adequate to safeguard award funds and ensure compliance with
           the terms and conditions of the awards;

      •	   drawdowns to determine whether drawdowns were adequately
           supported and if NMCSAP was managing award receipts in
           accordance with federal requirements;

      •	   award expenditures to determine the accuracy and allowability
           of costs charged to the awards;

      •	   monitoring of subgrantees and contractors to determine how
           NMCSAP administered and monitored contracted funds;

      •	   budget management and control to determine NMCSAP’s
           compliance with the costs approved in the award budgets;

      •	   Federal Financial Reports (FFR) and progress reports to
           determine if the required reports were submitted in a timely
           manner and accurately reflect award activity;

      •	   program performance and accomplishments to determine if
           NMCSAP is capable of meeting the award objectives; and

      •	   post award end-date activities to determine if the awards which
           had reached their end date were appropriately closed.

     The results of our analysis are discussed in detail in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology are discussed in Appendix I.


      4
          In February 2012, OVW issued the 2012 OVW Financial Grants Management Guide,
which is applicable to the grants and cooperative agreement audited in this report. The
2011 OJP Financial Guide is applicable to the grants and cooperative agreement audited in
this report, and the OJP Financial Guide, October 2009 is applicable to Grant
Nos. 2007-WR-AX-0085, 2010-WL-AX-0003, and 2010-SW-AX-0026.




                                           4

               FINDINGS AND RECOMMENDATIONS

      We found NMCSAP did not comply with essential grant conditions
      in the areas of internal controls, grant expenditures, and
      financial and progress reporting. Most significantly, NMCSAP
      charged unallowable and unsupported costs to the grants and
      cooperative agreement, and for Grant No. 2010-SW-AX-0026
      and Cooperative Agreement No. 2011-EW-AX-K004 we were
      unable to evaluate program performance and goal
      accomplishment. Based on our audit results, we make five
      recommendations to address dollar-related findings totaling
      $1,347,153 and nine recommendations to improve the
      management of OVW grants.

Prior Audits

      The Office of Management and Budget (OMB) Circular A-133 requires
that non-federal entities that expend $500,000 or more per year in federal
funding have a single audit performed annually. We reviewed the two most
recent single audits for NMCSAP, which were for fiscal years (FY) 2010 and
2011.

       In the FYs 2010 and 2011 single audit reports, the independent
auditors stated that NMCSAP did not design or implement an accounting
framework sufficient to accurately record and present revenues, expenses,
and related accounts in the financial statements according to U.S. Generally
Accepted Accounting Principles. Also, the independent auditors stated that
NMCSAP did not have suitable internal controls over disbursements of funds,
and the support for some of the disbursements was not organized in a
manner that is required for an audit. The independent auditors concluded
that the material weaknesses in NMCSAP's internal controls caused
significant doubt that all possible material misstatements could be detected
by their audit procedures. Therefore, the independent auditors reported a
disclaimer of opinion in both the FYs 2010 and 2011 single audit reports.

     The independent auditors also identified 16 findings in the FYs 2010
and 2011 single audit reports; the following 15 findings, shown in Exhibit 2,
were applicable to DOJ funds.




                                      5

EXHIBIT 2: SINGLE AUDIT FINDINGS RELATED TO DOJ FUNDS

                         SINGLE AUDIT FINDINGS RELATED TO DOJ FUNDS
 •   Internal Controls Over the General Ledger - Numerous misstatements in the
     financial statements were identified and the auditor was unable to render an opinion.
 •   Improve General Ledger Structure - The structure of NMCSAP's general ledger
     hindered objective, independent reviews.
 •   Improve Segregation of Duties and Establish Compensating Controls - The
     Executive Director has numerous capabilities and no compensating controls were
     identified to mitigate the lack of segregation of duties.
 •   Improve Controls Over Cash Assets - Bank reconciliation is not formally reviewed
     by anyone beyond the person performing it. Checks were back-dated into a prior
     period after the bank reconciliation was completed.
 •   Improve Controls Over Credit Cards - Credit cards are paid by phone and
     reconciling support for credit card charges was difficult.
 •   Improve Controls Over Disbursements and Recording Disbursements - Controls
     over disbursements can be improved.
 •   Improve Controls Over Travel Related Costs - Reconciling specific travel expenses
     to the person traveling, the event they were attending, and the authorization for
     incurring the expense was difficult.
 •   Cost Allocation Methodology - NMCSAP does not have a systematic method to
     ensure indirect costs are equitably and consistently allocated to all awards and
     functions benefiting from the cost.
 •   Recording and Support for Payroll Expense - Timesheets maintained by employees
     indicate hours worked each day, but do not consistently indicate the employee’s time
     charged to grants; timesheets are not signed by a person in a supervisory position;
     and a single individual may submit more than one timesheet for the same pay period
     without any reconciliation.
 •   Recording and Support for Pension Expense - NMCSAP charged amounts to grants
     for pension expense, however, NMCSAP does not have a qualified retirement plan in
     place, and the amounts were paid at the beginning of the year, rather than after
     employees’ services had been provided.
 •   Cash Management - NMCSAP did not comply with federal grant cash management
     policies because funds were drawn-down in advance of need.
 •   Subrecipient Monitoring - NMCSAP does not have a monitoring plan to ensure
     subrecipients’ programmatic and financial compliance of award requirements.
 •   Improve Oversight of the Organization - During FY 2010, the Board of Directors of
     met on two occasions and the minutes do not indicate approval of prior board meeting
     minutes, or any financial review. Turnover in terms of membership on the Board of
     Directors appears stagnant.
 •   Annual Audit - Prior to FY 2010, the most recent annual audit completed by NMCSAP
     was for the fiscal year ended June 30, 2004. It is not known if NMCSAP was required
     to have an audit per OMB A-133 for prior years; material adjustments were required
     for the fiscal year 2010 audit to comply with GAAP and therefore reliable information is
     not available to the auditor for prior years.
 •   Formalized Data Backup Plan - There is no uniform data backup of program data.
Source: FYs 2010 and 2011 single audit reports

      As the majority of the findings reported in the two most recent single
audits were applicable to DOJ funds, we expanded testing in our review of
grant and cooperative agreement expenditures. For the results of our



                                              6
review of grant and cooperative agreement expenditures, see the
Expenditures section of this report.

Internal Control Environment

     We reviewed NMCSAP’s internal control environment, including
procurement, receiving, and payment procedures; the payroll system; and
monitoring of contractors and subgrantees to determine compliance with the
terms and conditions of the grants and cooperative agreement, and to
assess risk.

       NMCSAP maintains its own policies and procedures. However, as
discussed in the Expenditures section of this report, these controls were
insufficient and not fully in practice. Specifically, in the Other Direct Costs
section of this report we found that expenses were not documented as
properly authorized, expenses were not accurately recorded and classified in
the accounting records, receipts were not maintained for all grant and
cooperative agreement credit card purchases, and the general ledger entries
were not detailed enough to trace expenses to supporting documentation.
In our opinion, these deficiencies do not ensure adequate control of direct
cost purchases and payments. We make an appropriate recommendation in
the Other Direct Costs section of this report.

       We reviewed NMCSAP payroll procedures and determined that
employees are paid semi-monthly. According to NMCSAP officials,
employees prepare and sign timesheets which are reviewed for accuracy by
the Project Directors and Executive Director. At the time of our audit, staff
members prepared a separate timesheet for each grant or project worked on
for the pay period. Additionally, NMCSAP Fiscal Policies require copies of all
timesheets to be maintained in the personnel file and that “No checks will be
prepared without proper documentation (i.e. receipt, purchase order,
sub-contract, time-sheet, etc.).” However, as discussed in the Personnel
Costs section of this report, we identified salary payments that were not
supported by timesheets, missing timesheets, instances in which timesheets
were provided in Microsoft Excel with typed signatures, timesheets missing
documentation of supervisory approval, and paychecks that were issued
before the end of the pay period; therefore all hours could not have been
verified before the paychecks were issued. In our opinion, these control
deficiencies do not ensure an employee’s time is supported, documented,
and approved prior to payment. We make an appropriate recommendation
in the Personnel Costs section of this report.

     During our audit, we found that the Project Director for Grant
No. 2007-WR-AX-0085 and Cooperative Agreement No. 2011-EW-AX-K004


                                       7

founded and is the President of a company which services include grant
writing and grant management. The Project Director assisted in the grant
applications for Grant Nos. 2007-WR-AX-0085, 2010-WL-AX-0003, and
2010-SW-AX-0026; and Cooperative Agreement No. 2011-EW-AX-K004.
Further, the company’s website states that for NMCSAP, the company’s
“staff works intimately with NMCSAP to help plan, coordinate and evaluate
numerous award winning regional and statewide trainings.” The OJP
Financial Guide requires a grantee to identify any potential conflict of
interest issues and disclose them to the awarding agency for specific
guidance and advice. In our opinion, owning a company that provides grant
writing and grant management services to NMCSAP, while also being a
full-time employee of NMCSAP gives the appearance of a conflict of interest.

       Additionally, when interviewing the Project Director for Grant
No. 2007-WR-AX-0085, we learned that the spouses for both the Project
Director and Project Assistant for this grant work together, which is how the
Project Assistant learned of the open position. During the hiring process, the
Project Director informed the Project Assistant that even though NMCSAP
position would be part-time, it was possible for the Project Director to also
hire the Project Assistant through the Project Director’s company. Since
2005, the Project Assistant has worked for both the Project Director’s
company and NMCSAP. In our judgment, hiring the Project Assistant gave
the appearance of a conflict of interest. In the Personnel Costs section of
this report, we also identify deficiencies regarding the Project Assistant’s
compensation and make an appropriate recommendation.

       In addition, in the Contracts and Subgrants section of this report, we
also identified three contracts awarded to the Project Director’s spouse for
Grant No. 2007-WR-AX-0085; despite the fact that the Project Director is
responsible for management and oversight of Grant No. 2007-WR-AX-0085.
In addition, NMCSAP officials stated that the contract was not competitively
bid. In our opinion, the non-competitive award of contracts to the Project
Director’s spouse gave the appearance of a conflict of interest.

       Further, the contracting practices used to award contracts to the
Project Director’s spouse violated the OMB Circular A-110, as well as the OJP
Financial Guide and 2012 OVW Financial Grants Management Guide, which
require all procurement transactions to be conducted in a manner to provide,
to the maximum extent practical, open, free, and fair competition. The
recipient must be alert to organizational conflicts of interest, as well as,
noncompetitive practices among contractors that may restrict or eliminate
competition. Additionally, the 2012 OVW Financial Grants Management
Guide states “A recipient must notify OVW in writing of its decision to hire an
individual to fill a grant-funded position, or to receive, or otherwise derive


                                      8

direct financial gain from, a sub-grant or contract that is made with grant
award funds, where the individual is either an immediate family member or
business partner of an official or employee of the grantee.” Therefore, fair
hiring and contracting practices were not followed in these instances. As a
result, we recommend that OVW ensure NMCSAP develop policies and
procedures to ensure conflicts of interests are avoided and fair hiring and
contracting practices are followed.

       Finally, NMCSAP’s policies and procedures did not provide any specific
instruction for monitoring and oversight of contractors and subgrantees.
However, NMCSAP officials stated that they work very closely with the
contractors. In the Contracts and Subgrants section of this report, we
identify deficiencies with NMCSAP’s monitoring of contractors and
subgrantees and make an appropriate recommendation.

     As a result of our review of NMCSAP’s policies and procedures, we
expanded transaction testing to cover 289 direct cost transactions.

Drawdowns

      To determine the procedures for drawing down funds, we conducted
interviews with NMCSAP officials and determined that the drawdowns are
based on reimbursements. According to the OJP Financial Guide and
2012 OVW Financial Grants Management Guide, recipients should time their
drawdown requests to ensure that federal cash on hand is the minimum
needed for disbursements or reimbursements to be made immediately or
within the next 10 days.

      We analyzed Grant Nos. 2007-WR-AX-0085, 2010-WL-AX-0003, and
2010-SW-AX-0026, and Cooperative Agreement No. 2011-EW-AX-K004 to
determine if the total actual costs recorded in the accounting records were
equal to, or in excess of, the cumulative drawdowns as recorded by OVW,
and have included the results of our analysis in Exhibit 3.




                                      9

EXHIBIT 3: ANALYSIS OF DRAWDOWNS

                       MOST RECENT       TOTAL AMOUNT      TOTAL AMOUNT
  AWARD NUMBER         DRAWDOWN              DRAWN           EXPENDED 5      DIFFERENCE
 2007-WR-AX-0085       10/05/2012         $1,654,173        $1,563,122       $(91,051)
 2010-WL-AX-0003       10/05/2012            422,170           433,441         11,271
 2010-SW-AX-0026       09/14/2012            235,607           256,841         21,234
 2011-EW-AX-K004       10/05/2012             71,545            75,435          3,890
Source: OVW and NMCSAP accounting records

      As shown in Exhibit 3, NMCSAP was cumulatively overdrawn for Grant
No. 2007-WR-AX-0085 by $91,051. Additionally, our review of the
accounting records found that NMCSAP has been overdrawn by varying
amounts for the life of Grant No. 2007-WR-AX-0085. We discussed this
discrepancy with NMCSAP officials who thought that the difference may be
due to lump sum adjusting entries for salaries. However, we reviewed the
accounting records for Grant No. 2007-WR-AX-0085 and found no evidence
to support this assertion. We also reviewed NMCSAP’s supporting
documentation for 24 of the 26 drawdowns for Grant No. 2007-WR-AX-0085
and found that the documentation supported 9 individual drawdown
amounts, but did not resolve the $91,051 discrepancy. As a result,
drawdowns exceeded expenditures for Grant No. 2007-WR-AX-0085 and we
determined the $91,051 in excess drawdowns made by NMCSAP officials to
be unsupported. We recommend that OVW remedy the $91,051 in
unsupported excess drawdowns. Additionally, we recommend that OVW
ensure that NMCSAP develop policies and procedures to ensure that
cumulative drawdowns do not exceed cumulative expenditures.

Expenditures

       As mentioned previously in the Internal Control Environment section of
this report, due to internal control deficiencies, we reviewed 289 direct costs
transactions to determine whether grant and cooperative agreement
expenditures were allowable, reasonable, and in compliance with the terms
and conditions of the awards.

Contracts and Subgrants

       NMCSAP awarded contracts and subgrants for Grant
Nos. 2007-WR-AX-0085 and 2010-WL-AX-0003. According to NMCSAP
officials, no contracts were awarded for Grant No. 2010-SW-AX-0026 or
Cooperative Agreement No. 2011-EW-AX-K004. During our initial review of

       5
          This amount includes expenditures that took place in the 10 days immediately
following the drawdown.




                                            10

the contracts included in our transaction testing, we identified contracts that
were not signed, marked “approved by phone,” marked “approved by
email,” and appeared to have conflicts of interest. Therefore, we expanded
testing and reviewed all contracts awarded by NMCSAP for Grant
Nos. 2007-WR-AX-0085 and 2010-WL-AX-0003.

       For Grant No. 2007-WR-AX-0085, we reviewed 32 contracts and
4 subgrants awarded to 25 contractors and 2 subgrantees. We identified
14 contracts and 4 subgrants that did not include signatures from the
contractor or subgrantee. Additionally, we identified the appearance of a
conflict of interest between NMCSAP and a contractor who is the spouse of
NMCSAP Project Director for the grant. Overall, we identified unallowable
questioned costs totaling $673,484, related to 17 contracts and 4 subgrants,
as shown in Exhibit 4.

EXHIBIT 4:	 UNALLOWABLE CONTRACT AND SUBGRANT COSTS
            FOR GRANT NO. 2007-WR-AX-0085 6
                                              NUMBER OF     NUMBER OF       UNALLOWABLE
                                              QUESTIONED    QUESTIONED       QUESTIONED
              CONTRACT ISSUE                  CONTRACTS     SUBGRANTS          COSTS
 Contracts did not include signatures from
 the contractor or sub grantee                     14             4           $ 633,553
 Appearance of a conflict of interest
 between NMCSAP and contractor who is
 the spouse of a NMCSAP employee                    3             -             39,932
                                   Total:          17             4          $673,484
Source: NMCSAP contracts, subgrants, and accounting records

       For Grant No. 2010-WL-AX-0003, we reviewed 48 contracts awarded
to 29 contractors. We identified two contracts marked “approved by phone”
that were not signed by the contractor, two contracts marked “approved by
email” that were not signed by the contractor, three contracts that included
expenses that were not budgeted or approved in a Grant Adjustment
Notice (GAN), and one contract that included expenses incurred before the
contract was signed and provided to NMCSAP. Not all of these contracts
resulted in unallowable questioned costs because expenses were not yet
billed or charged to the grant. However, we identified unallowable
questioned costs totaling $17,298, related to 9 contracts, as shown in
Exhibit 5.



       6
         Throughout this report, differences in the total amounts are due to rounding. The
sum of individual numbers prior to rounding may differ from the sum of the individual
numbers rounded.




                                             11

EXHIBIT 5: UNALLOWABLE CONTRACT COSTS FOR
           GRANT NO. 2010-WL-AX-0003
                                                           NUMBER OF        UNALLOWABLE
                                                           QUESTIONED        CONTRACT
                   CONTRACT ISSUE                          CONTRACTS           COSTS
Expenses in excess of approved contract                        5              $ 9,078
Contract approved by phone                                     1                 4,802
Expenses that were not budgeted or approved in a GAN           2                 3,148 7
Expenses incurred before the contract was signed and
provided to NMCSAP                                               1                270
                                               Total:            9            $17,298
Source: NMCSAP contracts and accounting records

       The OJP Financial Guide and 2012 OVW Financial Grants Management
Guide require a grantees accounting system to be supported with source
documentation, including contracts and subgrant award documentation.
Therefore, we determined that expenses related to contracts that were not
available are unsupported. The OJP Financial Guide and 2012 OVW Financial
Grants Management Guide also require a GAN to document any
programmatic, administrative, or financial change, modification, adjustment,
or correction associated with a grant award. This includes authorizing a
subcontractor that was not identified in the original approved budget. For
Grant No. 2010-WL-AX-0003, the appropriate GANs were not submitted, and
we question the unapproved expenses as unallowable. Additionally,
unsigned contracts and subgrants are not valid agreements. Contracts and
subgrants should be signed by the contractor or subgrantee and NMCSAP to
fully document the agreement between the parties. Therefore, we question
the expenses related to contracts without signatures as unallowable.
Expenses that are outside the terms of the contract, including those incurred
before an approved contract or in excess of an approved contract are also
unallowable.

       Finally, the OMB Circular A-110, as well as the OJP Financial Guide and
2012 OVW Financial Grants Management Guide require all procurement
transactions to be conducted in a manner to provide, to the maximum
extent practical, open, free, and fair competition. The recipient must be
alert to organizational conflicts of interest as well as noncompetitive
practices among contractors that may restrict or eliminate competition.

       7
          All expenses for these two contracts were questioned for expenses that were not
budgeted or approved in a GAN. Further, we identified additional discrepancies with these
contracts. For one contract, we identified an hourly rate of $225 for preparing and
conducting forensic interviews, which in our opinion is unreasonable. For the other
contract, we identified $164 in expenses that were incurred before the contract was
awarded and signed.




                                            12

Additionally, the 2012 OVW Financial Grants Management Guide states “A
recipient must notify OVW in writing of its decision to hire an individual to fill
a grant-funded position, or to receive, or otherwise derive direct financial
gain from, a sub-grant or contract that is made with grant award funds,
where the individual is either an immediate family member or business
partner of an official or employee of the grantee.” During our audit, we
identified three contracts awarded to the Project Director’s spouse for Grant
No. 2007-WR-AX-0085. The Project Director is responsible for providing
management and oversight of Grant No. 2007-WR-AX-0085. NMCSAP
officials stated that the contract was not competitively bid; however, they
felt that the spouse was very qualified because he had advanced degrees in
physics and had assisted with writing the grant application. Regardless of
the contractor’s high-level physics degrees and familiarity with the program
from assisting with the grant application, because of the existing appearance
of a conflict of interest between the contractor and the Project Director over
the grant, for which we found no evidence that NMCSAP notified OVW of the
possible conflict of interest, and the fact that the contracts were not
competitively bid, we determined that these expenses were unallowable.

      As a result of our review of NMCSAP contracts and subgrants awarded
under Grant Nos. 2007-WR-AX-0085 and 2010-WL-AX-0003, we identified
$690,782 in unallowable contract and subgrant expenditures, which are
detailed in Appendix III. Therefore, we recommend that OVW remedy the
$690,782 in unallowable contract and subgrant expenditures.

       In addition to the questioned costs we identified in relation to NMCSAP
contract and subgrant expenses, we found deficiencies with NMCSAP’s
monitoring of contractors and subgrantees. According to the OJP Financial
Guide and 2012 OVW Financial Grants Management Guide, direct recipients
should monitor organizations under contract to ensure compliance with their
overall financial management, as well as federal requirements. NMCSAP
officials stated that they work very closely with the contractors. For Grant
No. 2007-WR-AX-0085, NMCSAP officials stated that they monitored
contractors through weekly reports, phone conversations, and site visits.
For Grant No. 2010-WL-AX-0003, NMCSAP officials stated that they are in
continuous contact with contractors regarding their activities and monitoring
their work. However, as mentioned previously during our review of
contracts, we noted deficiencies including contracts with missing signatures,
expenses outside of the approved budget or contract, a missing contract,
and the appearance of a conflict of interest. Additionally, when we
requested the supporting documentation for some contract expenses, it was
necessary for NMCSAP officials to obtain the documentation from the
contractor because they had not received the support from the contractors
previously. Therefore, in our opinion NMCSAP has not demonstrated


                                       13

adequate monitoring of its contractors and subgrantees. We recommend
that OVW ensure that NMCSAP develop policies and procedures for adequate
monitoring of contractors and subgrantees.

Personnel Costs

     We determined that NMCSAP paid $54,683 in personnel expenses that
were not supported by timesheets or for which timesheets were missing, as
shown in Exhibit 6. These questioned costs are further detailed in
Appendix III.

          EXHIBIT 6: UNSUPPORTED PERSONNEL COSTS
                     AWARD NUMBER               UNSUPPORTED COSTS
                    2007-WR-AX-0085                  $ 28,055
                    2010-WL-AX-0003                     2,605
                    2010-SW-AX-0026                    15,744
                    2011-EW-AX-K004                     8,279
           Total Unsupported Personnel Costs:       $54,683
          Source: NMCSAP accounting records

       In addition to expenses that were not supported by timesheets, we
found instances in which timesheets were provided in Microsoft Excel with
typed signatures, timesheets were missing documentation of supervisory
approval, and paychecks were issued before the end of the pay period and
therefore all hours could not have been verified before the paychecks were
issued. In our opinion, these control deficiencies do not ensure an
employee’s time is supported, documented, and approved prior to payment.
Therefore, we recommend that OVW ensure that NMCSAP develop policies
and procedures to maintain complete and approved timesheets with original
signatures, and ensure that paychecks are issued after completion and
verification of all employee time for the pay period.

      Additionally, we determined that NMCSAP paid $5,730 to individuals
for work that was not included in the approved grant and cooperative
agreement budgets, as shown in Exhibit 7. These questioned costs are
further detailed in Appendix III.




                                      14

          EXHIBIT 7: UNALLOWABLE PERSONNEL COSTS

                      AWARD NUMBER                   UNALLOWABLE COSTS
                    2007-WR-AX-0085                              -
                    2010-WL-AX-0003                        $ 1,150
                    2010-SW-AX-0026                          4,580
                    2011-EW-AX-K004                              -
           Total Unallowable Personnel Costs:              $5,730
          Source: NMCSAP accounting records and OJP’s GMS

      As mentioned previously, the OJP Financial Guide and 2012 OVW
Financial Grants Management Guide require a GAN to document any
programmatic, administrative, or financial change, modification, adjustment,
or correction associated with a grant award. For Grant
No. 2010-WL-AX-0003, an accountant position charged to the grant was not
approved in the grant budget and an appropriate GAN was not submitted.
Therefore, we question the costs associated with the position as unallowable.

     For Grant No. 2010-SW-AX-0026, we reviewed the check and
timesheet of a salary adjustment entry for the Executive Director’s pension.
However, the amount paid was actually for “finances/program management”
work paid at a $50 hourly rate for the 3-month period of July through
September 2011. In addition to this check, the Executive Director received
semi-monthly paychecks during this 3-month period. Therefore, because a
GAN was not submitted approving the additional work and higher pay rate,
we question this expense as unallowable.

      As shown in Exhibit 8, we determined that NMCSAP paid $9,154 in
fringe benefit expenses that were not supported. These questioned costs
are further detailed in Appendix III.

         EXHIBIT 8: UNSUPPORTED FRINGE BENEFIT COSTS
                                                         UNSUPPORTED
                       AWARD NUMBER                         COSTS
                      2007-WR-AX-0085                      $ 9,138
                      2010-WL-AX-0003                           16
                      2010-SW-AX-0026                             -
                      2011-EW-AX-K004                             -
           Total Unsupported Fringe Benefit Costs:         $9,154
         Source: NMCSAP accounting records

      For Grant No. 2007-WR-AX-0085, the Project Director’s FICA payment
was not supported by a timesheet. Therefore, the FICA expense was
questioned as unsupported. Additionally, the Executive Director’s FICA
payment for Grant No. 2010-WL-AX-0003 was not supported by a timesheet.
Therefore, the FICA expense was questioned as unsupported.



                                      15

      Finally, we determined that NMCSAP paid $3,792 in fringe benefit
costs to individuals that were not included in the approved grant and
cooperative agreement budgets, as shown in Exhibit 9. These questioned
costs are further detailed in Appendix III.

         EXHIBIT 9: UNALLOWABLE FRINGE BENEFIT COSTS
                                                      UNALLOWABLE
                       AWARD NUMBER                      COSTS
                      2007-WR-AX-0085                   $ 1,200
                      2010-WL-AX-0003                       154
                      2010-SW-AX-0026                     2,438
                      2011-EW-AX-K004                         -
           Total Unallowable Fringe Benefit Costs:      $3,792
         Source: NMCSAP accounting records and OJP’s GMS

       Health benefits for out-of pocket health related expenses were paid
directly to the Project Director. In response to the draft report, NMCSAP
officials stated that, prior to 2013, it paid employees directly for
out-of-pocket for health related cost if they had health insurance from
another source. In addition, NMCSAP provided documentation supporting
over $1,200 in out-of-pocket health related expenses to the Project Director
for Grant No. 2007-WR-AX-0085. However, while the approved grant
budget included health insurance costs, the payment for out-of-pocket
health related costs for an individual who had health insurance from another
source was not approved in the grant budget. Therefore, based on the
documentation provided in response to the draft report, we found that the
$1,200 paid to the Project Director for out-of-pocket health related costs is
unallowable.

      As mentioned previously, for Grant No. 2010-WL-AX-0003 an
accountant position was not approved in the grant budget and an
appropriate GAN was not submitted. Therefore, we question the related
fringe benefits for this position as unallowable. Additionally, the grant
budget did not approve the Executive Director’s health insurance because
this was covered by other grants. An appropriate GAN was not submitted;
therefore, the Executive Director’s health insurance expenses are questioned
as unallowable.

      For Grant No. 2010-SW-AX-0026, only the Executive Director was
approved in the grant budget for health insurance and an appropriate GAN
was not submitted for the other employees. Therefore, the remaining health
insurance expenses for the unapproved employees were questioned as
unsupported.



                                      16

      As a result of our review, we identified a total of $73,359 in questioned
costs related to payroll expenditures. Therefore, we recommend that OVW
remedy the $73,359 in questioned payroll costs, including $54,683 in
unsupported personnel expenditures, $5,730 in unallowable personnel
expenditures, $9,154 in unsupported fringe benefit expenditures, and
$3,792 in unallowable fringe benefit expenditures.

      In addition, during our review of payroll expenditures we found that
the approved budgets for Grant No. 2007-WR-AX-0085 and Cooperative
Agreement No. 2011-EW-AX-K004 included personnel and fringe benefits for
the Project Director and the Project Assistant. However, the budgets did not
indicate whether the positions were part-time or full time. In our judgment,
based on the FY 2013 salary breakdown by funding source provided by
NMCSAP, the Project Director and Project Assistant were being paid what we
consider full-time salaries for both Grant No. 2007-WR-AX-0085 and
Cooperative Agreement No. 2011-EW-AX-K004. In addition, the Project
Director and Project Assistant were also being paid by a third funding source
as early as 2009, based on invoices submitted by the Project Director and
Project Assistant to NMCSAP. However, we determined that the Project
Director and Project Assistant were not working full-time on either Grant
No. 2007-WR-AX-0085 or Cooperative Agreement No. 2011-EW-AX-K004.
Therefore, we reviewed all applicable payroll transactions for the Project
Director and Project Assistant and questioned $375,939 as unallowable
compensation for multiple full-time salaries when the documentation
provided did not support full-time work on either Grant
No. 2007-WR-AX-0085 or Cooperative Agreement No. 2011-EW-AX-K004 ,
which are detailed in Appendix III. We recommend that OVW remedy the
$375,939 in unallowable compensation for multiple full-time salaries paid to
the same employees.

Other Direct Costs

      In reviewing NMCSAP’s other direct costs, we determined that NMCSAP
paid $69,769 in expenses that were not supported, as shown in Exhibit 10.
These questioned costs are further detailed in Appendix III.

         EXHIBIT 10: UNSUPPORTED OTHER DIRECT COSTS
                      AWARD NUMBER                 UNSUPPORTED COSTS
                     2007-WR-AX-0085                    $ 56,294
                     2010-WL-AX-0003                       1,500
                     2010-SW-AX-0026                      11,975
                     2011-EW-AX-K004                           -
           Total Unsupported Other Direct Costs:       $69,769
         Source: NMCSAP accounting records




                                      17
      Additionally, we determined that NMCSAP paid $46,253 in other direct
costs that were not allowable in the approved budgets or by submission of
appropriate GANs, as shown in Exhibit 11. These questioned costs are
further detailed in Appendix III.

            EXHIBIT 11: UNALLOWABLE OTHER DIRECT COSTS
                         AWARD NUMBER                     UNALLOWABLE COSTS
                       2007-WR-AX-0085                         $ 37,508
                       2010-WL-AX-0003                            1,836
                       2010-SW-AX-0026                            6,643
                       2011-EW-AX-K004                              266
              Total Unallowable Other Direct Costs:            $46,253
            Source: NMCSAP accounting records and OJP’s GMS

      We recommend that OVW remedy the $69,769 in unsupported other
direct costs and $46,253 in unallowable other direct costs.

      During our review of other direct costs we also found the following
control deficiencies:

     •	     Supporting documentation did not indicate that expenditures were
            properly authorized by a grantee official with appropriate authority.

     •	     Expenses were not accurately recorded and classified to the correct
            budget category in the accounting records.

     •	     Receipts were not available for all grant and cooperative
            agreement purchased credit card transactions and NMCSAP's
            general ledger entries were not detailed enough to trace the
            expenditure to the specific supporting document. 8

      Therefore, we recommend that OVW ensure NMCSAP develop policies
and procedures to document expenses as properly authorized, expenses are
accurately recorded and classified in the accounting records, receipts are
maintained for all grant and cooperative agreement credit card purchases,
and the general ledger entries are detailed enough to trace expenditures to
supporting documentation.




     8
          In some instances, the expense was only titled “American Express.”




                                            18

Budget Management and Control

      For each grant and cooperative agreement, NMCSAP received an
approved budget broken down by categories including Personnel, Fringe
Benefits, Travel, Equipment, Supplies, Contractual, and Other. If changes
are subsequently made, the OJP Financial Guide and the 2012 OVW Financial
Grants Management Guide require that the recipient initiate a GAN for
budget modification if the proposed cumulative change is greater than
10 percent of the total award amount.

       For Grant Nos. 2007-WR-AX-0085, 2010-WL-AX-0003, and
2010-SW-AX-0026, and Cooperative Agreement No. 2011-EW-AX-K004, we
conducted detailed analysis of expenditures by budget category as identified
by NMCSAP. We found that NMCSAP expenditures were within the
10 percent threshold allowed. Therefore, we make no recommendations in
this area.

Reporting

      We reviewed the Federal Financial Reports (FFRs) and Categorical
Assistance Progress Reports (progress reports) to determine if the required
reports had been submitted accurately, and within the timeframes required
by the OJP Financial Guide and the 2012 OVW Financial Grants Management
Guide.

Financial Reports

      The OJP Financial Guide and the 2012 OVW Financial Grants
Management Guide require that grant recipients report expenditures online
using the SF-425 FFR no later than 30 days after the end of each calendar
quarter. The final report must be submitted no later than 90 days following
the end of the grant period. We evaluated the timeliness of the four most
recent FFRs for each grant and cooperative agreement. As shown in
Exhibit 12, we determined that 5 of 16 FFRs were submitted between 1 and
8 days late for Grant Nos. 2007-WR-AX-0085, 2010-WL-AX-0003, and
2010-SW-AX-0026, and Cooperative Agreement No. 2011-EW-AX-K004.




                                     19

EXHIBIT 12: FEDERAL FINANCIAL REPORT HISTORY

 REPORT         REPORT PERIOD        REPORT DUE              DATE
 NUMBER        FROM – TO DATES          DATE               SUBMITTED      DAYS LATE
GRANT NO. 2007-WR-AX-0085
   19      04/01/2012 - 06/30/2012   07/30/2012            07/31/2012          1
GRANT NO. 2010-WL-AX-0003
    7      04/01/2012 - 06/30/2012   07/30/2012            07/31/2012          1
GRANT NO. 2010-SW-AX-0026
    8      04/01/2012 - 06/30/2012   07/30/2012            07/31/2012          1
COOPERATIVE AGREEMENT NO. 2011-EW-AX-K004
    1      10/01/2011 - 12/31/2011   01/30/2012            02/07/2012          8
    3      04/01/2012 - 06/30/2012   07/30/2012            07/31/2012          1
Source:	 OJP’s GMS, OJP Financial Guide, and 2012 OVW Financial Grants Management
         Guide

    We found that the FFRs were generally submitted timely. Therefore,
we make no recommendation in this area.

      We also reviewed financial reporting for accuracy. According to the
OJP Financial Guide and the 2012 OVW Financial Grants Management Guide,
recipients shall report the actual expenditures and unliquidated obligations
incurred for the reporting period, including cumulative data, on each
financial report. We evaluated the accuracy of FFRs for the last
four quarters for Grant Nos. 2007-WR-AX-0085, 2010-WL-AX-0003, and
2010-SW-AX-0026, and Cooperative Agreement No. 2011-EW-AX-K004. We
found that the expenditures covering the FFRs' reporting periods were not
supported by the general ledgers in 14 of the 16 FFRs we reviewed. We
further determined that 15 of the 16 FFRs' cumulative expenditures were not
supported by the general ledgers, as shown in Exhibit 13.




                                         20

EXHIBIT 13: FEDERAL FINANCIAL REPORT ACCURACY

                                                     CUMULATIVE       CUMULATIVE
                                                    EXPENDITURES      DIFFERENCE
                                     CUMULATIVE         PER         BETWEEN FFRS &
 REPORT       REPORT PERIOD         EXPENDITURES     ACCOUNTING       ACCOUNTING
 NUMBER      FROM - TO DATES          PER FFR         RECORDS          RECORDS
 GRANT NO. 2007-WR-AX-0085
   17     10/01/2011 - 12/31/2011   $1,466,955      $1,420,712        $(46,242)
   18     01/01/2012 - 03/31/2012       1,502,074       1,474,609       (27,466)
   19     04/01/2012 - 06/30/2012       1,539,199       1,517,875       (21,324)
   20     07/01/2012 – 09/30/2012       1,654,173       1,563,122       (91,051)
  GRANT NO. 2010-WL-AX-0003
    5     10/01/2011 - 12/31/2011   $    257,725    $    219,717      $(38,007)
    6     01/01/2012 - 03/31/2012        311,658         274,256        (37,402)
    7     04/01/2012 - 06/30/2012        351,171         362,053           10,883
    8     07/01/2012 – 09/30/2012        422,170         433,441           11,271
  GRANT NO. 2010-SW-AX-0026
    6     10/01/2011 - 12/31/2011   $    167,617    $    170,178       $ 2,561
    7     01/01/2012 - 03/31/2012        192,915         198,044            5,128
    8     04/01/2012 - 06/30/2012        219,811         227,760            7,949
    9     07/01/2012 – 08/31/2012        235,607         235,607                -
  COOPERATIVE AGREEMENT NO. 2011-EW-AX-K004
    1     10/01/2011 - 12/31/2011   $      2,453    $      3,110       $     657
    2     01/01/2012 - 03/31/2012          5,479           6,136             657
    3     04/01/2012 - 06/30/2012         42,399          45,474            3,075
    4     07/01/2012 – 09/30/2012        173,714          75,435        (98,279)
Source: NMCSAP accounting records and OJP’s GMS

      Because NMCSAP uses accrual accounting, we recognize that the
quarterly expenses reported on the FFRs may be different from what is
reported on the general ledgers we obtained on October 30, 2012.
Therefore, based on our analysis of the general ledgers, we also reviewed
the supporting documentation maintained by NMCSAP, which included
general ledger printouts at the time the FFRs were prepared. We found that
NMCSAP supporting documentation and October 30, 2012, general ledgers
supported 9 of the 16 FFRs. However, NMCSAP did not maintain supporting
documentation for 4 FFRs, and the supporting documentation and October
30, 2012, general ledgers did not fully support 3 FFRs. Therefore, we
recommend that OVW ensure that NMCSAP develop policies and procedures
to ensure the accuracy of FFRs and maintain documentation to support FFRs.




                                          21

Progress Reports

      According to the OJP Financial Guide and the 2012 OVW Financial
Grants Management Guide, progress reports are due semiannually on
January 30 and July 30 for the life of the award. To verify the timely
submission of progress reports, we reviewed the last four progress reports
submitted for Grant Nos. 2007-WR-AX-0085, 2010-WL-AX-0003, and
2010-SW-AX-0026, and the last two progress reports for Cooperative
Agreement No. 2011-EW-AX-K004. As shown in Exhibit 14, we identified
discrepancies related to Grant No. 2010-SW-AX-0026.

EXHIBIT 14: PROGRESS REPORT HISTORY
 REPORT        REPORT PERIOD
 NUMBER       FROM - TO DATES           DUE DATE      DATE SUBMITTED     DAYS LATE
GRANT NO. 2010-SW-AX-0026
   1      07/01/2010 - 12/31/2010      01/30/2011       03/30/2011           59
   3      07/01/2011 - 12/31/2011      01/30/2012       02/08/2012            9
   4      01/01/2012 - 06/30/2012      07/30/2012       09/06/2012           38
Source:	 OJP’s GMS, OJP Financial Guide and 2012 OVW Financial Grants Management
         Guide

     As shown above, 3 of the 14 progress reports were submitted between
9 and 59 days late. Therefore, we recommend that OVW ensure that
NMCSAP develop policies and procedures to ensure timely submissions of
progress reports.

       We also reviewed the progress reports for accuracy. According to the
OJP Financial Guide and the 2012 OVW Financial Grants Management Guide,
the funding recipient agrees to collect data appropriate for facilitating
reporting requirements established by Public Law 103-62 for the
Government Performance and Results Act. The funding recipient should
ensure that valid and auditable source documentation is available to support
all data collected for each performance measure specified in the program
solicitation. In order to verify the information reported, we selected a
sample of statistical data from the last two progress reports (periods ending
December 31, 2011, and June 30, 2012) for Grant Nos. 2007-WR-AX-0085,
2010-WL-AX-0003, and 2010-SW-AX-0026. For Cooperative Agreement
No. 2011-EW-AX-K004, we did not review the progress reports because no
statistical data had been reported in the last two reports.

      For Grant No. 2007-WR-AX-0085, we requested verification in areas
concerning: (1) training events provided, including the number and types of
people trained; (2) education events provided, including the number and
types of people educated with Rural Program funds; (3) number of victims



                                         22

served and partially served; (4) number of secondary victims served;
(5) number and types of victim services provided; (6) number of hotline
calls; and (7) number of victim-witness notifications and outreach to
victim/survivors. We found that the documentation provided by NMCSAP
generally did not support the claims made on the progress reports.
Specifically, for the progress report ending December 31, 2011, we found
that of the 9 items reviewed, 8 items were not supported by documentation
maintained by NMCSAP. Additionally, of the 8 items reviewed for the
progress report ending June 30, 2012, we found 7 items were not supported
by documentation maintained by NMCSAP.

       For Grant No. 2010-WL-AX-0003, we requested verification in areas
concerning: (1) training events provided, including the number and types of
people trained; (2) number of victims served, partially served, and
victims/survivors seeking services who were not served; (3) number and
types of victim services provided by lawyers; and (4) number and types of
legal issues addressed by grant-funded staff. We found that the
documentation provided by NMCSAP generally did not support the claims
made on the progress reports. Of the 24 facts reviewed for the progress
report ending December 31, 2011, we found that 15 facts were not
supported by the documentation provided and for the 9 facts that were
supported, 7 of these facts reported no activity. Additionally, of the 24 facts
reviewed for the progress report ending June 30, 2012, we found that
19 facts were not supported by the documentation provided and for the
5 facts that were supported, 4 of these facts reported no activity. NMCSAP
officials stated that variances in the progress report information reflects data
that occurred after the progress report was issued.

      For Grant No. 2010-SW-AX-0026, we requested verification in areas
concerning: (1) number and types of coalition members; and (2) training
events provided, including the number and types of people trained. We
determined that none of the claims for the items reviewed were supported
by the documentation provided by NMCSAP for either progress reports
ending December 31, 2011, and June 30, 2012.

       In summary, we determined that progress reports were generally not
supported and we recommend that OVW ensure that NMCSAP develop
policies and procedures to maintain accurate supporting documents for
information reported in progress reports at the time the progress report is
completed.




                                      23

Program Performance and Accomplishments

      The purpose of the grants and cooperative agreement awarded to
NMCSAP is dependent upon the program. As previously noted, NMCSAP
received grants and a cooperative agreement under OVW’s Rural Program,
Legal Assistance Program, State Coalitions Grant Program, and Later in Life
Program. In order to assess program performance and accomplishments,
we requested that NMCSAP provide evidence demonstrating that the goals
and objectives of the awards had been met, or are sufficiently in progress.
The goals identified by NMCSAP were as follows:

     •	   Grant No. 2007-WR-AX-0085: (1) Enhance the safety of children,
          youth, and adult victims of sexual assault, dating violence,
          stalking, and child victimization by supporting a regionally based
          design to address and prevent sexual assault and child abuse in
          New Mexico with special emphasis on Catron, Grant, Hidalgo, Luna,
          McKinley, and Rio Arriba counties. (2) Expand existing and
          develop additional victim service programs to meet the needs of
          child, youth, and adult sexual assault, dating violence, stalking,
          and child abuse victims. (3) Increase the safety of children, youth,
          and adults in rural New Mexico communities by creating and
          implementing strategies to increase awareness and prevention of
          sexual assault and child abuse in New Mexico with special
          emphasis on Catron, Grant, Hidalgo, Luna, McKinley, and Rio
          Arriba counties.

     •	   Grant No. 2010-WL-AX-0003: (1) Legal screening and referral
          services for survivors in all rape crisis centers and coordinator sites
          in New Mexico. (2) Legal advising and referral services to
          survivors in un-served areas of the state and who do not access
          services of rape crisis centers. (3) Increase and enhance attorney
          services to survivors through free Continuing Legal Education
          training in exchange for pro bono service from the private bar, low
          bono contracts, and project attorneys providing direct legal
          services. (4) Identify existing legal resources for referral.
          (5) Confidentiality training for rape crisis center staff and
          coordinators in New Mexico.

     •	   Grant No. 2010-SW-AX-0026: (1) Increase the skill level and
          morale of professional staff that provide services to victims of
          sexual violence. (2) To participate in national meetings, trainings,
          and collaborations supported by OVW. (3) Ensure the continuation
          of NMCSAP activities on a statewide basis providing the most
          current policy, legislation, funding, and information related to


                                       24

          sexual violence. (4) Ensure persons with physical disabilities
          accessibility to NMCSAP services and committees. (5) Enhance,
          inspire, and connect the sexual assault service programs in New
          Mexico.

     •	   Cooperative Agreement No. 2011-EW-AX-K004: (1) Enhance
          criminal justice professionals, governmental agency staff, law
          enforcement, and victim assistant’s systematic responses to elder
          abuse, exploitation, and neglect in New Mexico. (2) Increase the
          number of seniors who are victims of sexual assault, domestic
          violence, dating violence, and stalking who receive linguistically
          and culturally appropriate services in New Mexico.

      For Grant No. 2007-WR-AX-0085, in addition to progress reports,
NMCSAP provided documentation including training events, radio
advertisements, and data collection. As mentioned previously, during our
review of progress reports, we found that progress reports were generally
not supported. However, by reviewing the additional supporting
documentation along with the information in the progress reports, we
concluded that there was no indication that NMCSAP is not on track to
complete the goals and objectives.

      For Grant No. 2010-WL-AX-0003, in addition to progress reports,
NMCSAP provided training evaluations and feedback documentation, and
contracts issued under Grant No. 2010-WL-AX-0003. As mentioned
previously, during our review of progress reports, we found that progress
reports were generally not supported. However, by reviewing training
evaluations, feedback, and progress reports, including item 13 which we
found unsupported during our progress report review, we were able to verify
program performance and concluded that there was no indication that
NMCSAP is not on track to complete the grant's goals and objectives.

      For Grant No. 2010-SW-AX-0026, aside from progress reports, we did
not receive any additional documentation from NMCSAP to verify program
performance and accomplishment of goals and objectives. As mentioned
previously, during our review of progress reports for Grant
No. 2010-SW-AX-0026, we found that none of the claims for the items
reviewed were supported. Therefore, we were unable to rely on the
accuracy of the progress report information to evaluate program
performance. By reviewing the expenditures in the general ledger, we were
able to confirm progress in the following objectives:

     •	   provide travel and registration scholarships;



                                      25

     •	   provide travel and registration to the Executive Director and
          Statewide Sexual Assault Services Coordinator;

     •	   pay 75 percent of the Executive Director’s salary;

     •	   pay the increased rent on the first floor office space; and

     •	   pay 38 percent of the Statewide Sexual Assault Services
          Coordinator’s salary.

However, we were still unable to evaluate program performance and goal
accomplishment.

      For Cooperative Agreement No. 2011-EW-AX-K004, the special
conditions explain that there are two phases for this agreement, planning
and implementation. During the Planning Phase, NMCSAP officials were
required to attend training prior to implementing the program. In the
Implementation Phase, NMCSAP could begin implementing outreach and
delivery of services to older victims, but only upon completion of the
Planning Phase. NMCSAP officials explained that it was too early to evaluate
goals, objectives, and program performance because staff members are still
attending training for this cooperative agreement. Our review of
expenditures concurred with NMCSAP’s explanation, because most of the
expenses we identified were for travel and trainings. Therefore, we did not
review program performance for Cooperative Agreement
No. 2011-EW-AX-K004.

      Overall, for Grant Nos. 2007-WR-AX-0085 and 2010-WL-AX-0003
NMCSAP officials were able to support their claims of achievement pertaining
to the goals stated above and we found no indication that NMCSAP would be
unable to meet current or future objectives of the award programs.
However, for Grant No. 2010-SW-AX-0026 and Cooperative Agreement
No. 2011-EW-AX-K004 we were unable to evaluate program performance
and goal accomplishment.

Closeout Activity

      According to the 2012 OVW Financial Grants Management Guide, all
recipients must submit, within 90 days after the end date of the award, all
financial, performance, and other reports that are required by the terms and
conditions of the award. We determined that one of the grants in this audit
has reached the closeout date. Exhibit 15 shows the closeout status for
Grant No. 2010-SW-AX-0026.



                                      26

EXHIBIT 15: CLOSEOUT STATUS

                         PROJECT       PROJECT       PROJECT    CLOSEOUT STATUS
     AWARD NUMBER       START DATE    END DATE    CLOSEOUT DATE PER OJP’S GMS
    2010-SW-AX-0026     09/01/2010   08/31/2012    11/29/2012      Submitted
Source: OJP’s GMS

         Even though the closeout status on OJP’s GMS showed “Submitted,”
we found that the closeout requirements were incomplete as of March 4,
2013. Specifically, NMCSAP was incomplete for two requirements,
submission of the final progress report and submission of programmatic
requirements certification. Therefore, we concluded that NMCSAP did not
fulfill the requirements for the closeout of Grant No. 2010-SW-AX-0026, and
we recommend that OVW coordinate with NMCSAP to ensure grants are
closed out in a timely manner and in accordance with the 2012 OVW
Financial Grants Management Guide.

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants and cooperative agreement were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, terms and conditions of the awards, and to determine program
performance and accomplishments. We examined NMCSAP’s accounting
records, financial and progress reports, and operating policies and
procedures, and found:

     •	   the appearance of conflicts of interests and that fair hiring and
          contracting practices were not followed;

     •	   $91,051 in unsupported excess drawdowns for Grant

          No. 2007-WR-AX-0085;


     •	   $690,782 in unallowable contract and subgrant expenditures for
          Grant Nos. 2007-WR-AX-0085 and 2010-WL-AX-0003;

     •	   inadequate monitoring of contractors and subgrantees;

     •	   inadequate control over timesheets and verifications of employee
          time prior to payment;

     •	   $73,359 in questioned payroll costs, including $54,683 in
          unsupported personnel expenditures, $5,730 in unallowable
          personnel expenditures, $9,154 in unsupported fringe benefit
          expenditures, and $3,792 in unallowable fringe benefit


                                       27

          expenditures for Grant Nos. 2007-WR-AX-0085,
          2010-WL-AX-0003, and 2010-SW-AX-0026, and Cooperative
          Agreement No. 2011-EW-AX-K004;

     •	   $375,939 in unallowable compensation for multiple full-time
          salaries paid to the same employees for Grant
          No. 2007-WR-AX-0085 and Cooperative Agreement
          No. 2011-EW-AX-K004;

     •	   $69,769 in unsupported other direct costs and $46,253 in
          unallowable other direct costs for Grant Nos. 2007-WR-AX-0085,
          2010-WL-AX-0003, and 2010-SW-AX-0026, and Cooperative
          Agreement No. 2011-EW-AX-K004;

     •	   expenditures were not properly authorized or accurately recorded
          and classified in the accounting records, receipts were not
          maintained, and general ledger entries were not detailed enough to
          trace expenditures to supporting documentation;

     •	   FFRs were not accurate and supporting documentation was not
          maintained;

     •	   progress reports were not submitted timely, were generally not
          supported, and supporting documentation was not maintained; and

     •	   Grant No. 2010-SW-AX-0026 was not closed out in a timely
          manner and in accordance with the 2012 OVW Financial Grants
          Management Guide.

Recommendations

We recommend that OVW coordinate with NMCSAP to:

     1.	 Develop policies and procedures to ensure conflicts of interests are
         avoided and fair hiring and contracting practices are followed.

     2.	 Remedy the $91,051 in unsupported excess drawdowns.

     3.	 Develop policies and procedures to ensure that cumulative
         drawdowns do not exceed cumulative expenditures.




                                     28

      4.	 Remedy the $690,782 in unallowable contract and subgrant
          expenditures. 9

      5.	 Develop policies and procedures for adequate monitoring of
          contractors and subgrantees.

      6.	 Develop policies and procedures to maintain complete and
          approved timesheets with original signatures, and ensure that
          paychecks are issued after completion and verification of all
          employee time for the pay period.

      7.	 Remedy the $73,359 in questioned payroll costs, including
          $54,683 in unsupported personnel expenditures, $5,730 in
          unallowable personnel expenditures, $9,154 in unsupported fringe
          benefit expenditures, and $3,792 in unallowable fringe benefit
          expenditures. 10

      8.	 Remedy the $375,939 in unallowable compensation for multiple
          full-time salaries paid to the same employees.

      9.	 Remedy the $69,769 in unsupported other direct costs and
          $46,253 in unallowable other direct costs. 11

      10. Develop policies and procedures to document expenses as properly
          authorized, expenses are accurately recorded and classified in the
          accounting records, receipts are maintained for all grant and
          cooperative agreement credit card purchases, and the general

      9
         In the draft report, we also recommended that OVW remedy $2,688 in
unsupported contract expenditures. In its response to the draft report, the NMSCAP
provided documentation sufficient to remedy the $2,688. We updated the report and this
recommendation to reflect the fact that the $2,688 is supported.
      10
           In the draft report, we recommended that OVW remedy $10,354 in unsupported
fringe benefit expenditures and $2,592 in unallowable fringe benefit expenditures. In its
response to the draft report, the NMCSAP provided documentation supporting $1,200 of the
unsupported health benefits paid to the Project Director. However, the $1,200 paid to the
Project Director was for out-of-pocket health related costs, which is unallowable. We
updated the report and this recommendation to reflect the fact that unsupported fringe
benefits decreased by $1,200, but unallowable fringe benefit costs were increased by
$1,200.
      11
          In the draft report, we recommended that OVW remedy $92,920 in unsupported
grant expenditures. In its response to the draft report, the NMSCAP provided
documentation sufficient to remedy $23,151 of the $92,920. We updated the report and
this recommendation to reflect the new amount.




                                           29

   ledger entries are detailed enough to trace expenditures to

   supporting documentation.


11. Develop policies and procedures to ensure the accuracy of FFRs
    and maintain documentation to support FFRs.

12. Develop policies and procedures to ensure timely submissions of
    progress reports.

13. Develop policies and procedures to maintain accurate supporting
    documents for information reported in progress reports at the time
    the progress report is completed.

14. Ensure grants are closed out in a timely manner and in accordance
    with the 2012 OVW Financial Grants Management Guide.




                               30

                                                                        APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY

       The objective of the audit was to assess performance in the key areas
of grant management that are applicable and appropriate for the grants and
cooperative agreement under review. These areas included: (1) internal
control environment, (2) drawdowns, (3) grant expenditures, (4) monitoring
of subgrantees and contractors, (5) budget management and control,
(6) financial status and progress reports, (7) program performance and
accomplishments, and (8) post grant end-date activities. We determined
that property management, program income, and special grant requirements
were not applicable to these awards.

      We tested compliance with what we consider to be the most important
conditions of the grants and cooperative agreement. Unless otherwise
stated in this report, the criteria we audit against are contained in the OJP
Financial Guide, the 2012 OVW Financial Grants Management Guide, and the
award documentation. 12

       Our audit concentrated on, but was not limited to, September 10,
2007, the award date for Grant No. 2007-WR-AX-0085, to October 30, 2012,
the date the most recent FFR was submitted. This was an audit of OVW
Grant Nos. 2007-WR-AX-0085, 2010-WL-AX-0003, and 2010-SW-AX-0026,
and Cooperative Agreement No. 2011-EW-AX-K004. NMCSAP has drawn a
total of $2,383,496 in grant and cooperative agreement funds as of
November 6, 2012.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.




      12
           In February 2012, OVW issued the 2012 OVW Financial Grants Management
Guide, which is applicable to the grants and cooperative agreement audited in this report.
The 2011 OJP Financial Guide is applicable to the grants and cooperative agreement audited
in this report, and the OJP Financial Guide, October 2009 is applicable to Grant
Nos. 2007-WR-AX-0085, 2010-WL-AX-0003, and 2010-SW-AX-0026.




                                           31

       In conducting our audit, we performed sample testing in three areas,
which were grant and cooperative agreement expenditures (including
personnel expenditures), financial reports, and progress reports. In this
effort, we employed a judgmental sampling design to obtain broad exposure
to numerous facets of the awards reviewed, such as dollar amounts,
expenditure category, or risk. However, this non-statistical sample design
does not allow a projection of the test results for all grant and cooperative
agreement expenditures or internal controls and procedures.

      In addition, we evaluated internal control procedures, drawdowns,
monitoring of subgrantees and contractors, budget management and
controls, program performance and accomplishments, and closeout activity.
However, we did not test the reliability of the financial management system
as a whole, and reliance on computer based data was not significant to our
objective.




                                     32

                                                                      APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS

DESCRIPTION                                                        AMOUNT         PAGE

Questioned Costs 13

       Unallowable Contracts and Subgrants:                        $690,782         14
       Unallowable Compensation:                                   $375,939         18
       Unallowable Other Direct Costs:                              $46,253         19
       Unallowable Personnel:                                        $5,730         15
       Unallowable Fringe Benefits:                                  $3,792         17
       Total Unallowable:                                        $1,122,496

       Unsupported Drawdowns:                                       $91,051         11
       Unsupported Other Direct Costs:                              $69,769         18
       Unsupported Personnel:                                       $54,683         15
       Unsupported Fringe Benefits:                                  $9,154         16
       Total Unsupported:                                          $224,657



       Total (Gross):                                            $1,347,153

       Less Duplication 14:                                       ($74,225)

Net Questioned Costs:                                          $1,272,928




      13
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
      14
          Some costs were questioned for more than one reason. Net questioned costs
exclude the duplicate amount.




                                           33

                                                                       APPENDIX III

                       QUESTIONED COST DETAILS15

UNALLOWABLE CONTRACT AND SUBGRANT COSTS
       AWARD NUMBER         CONTRACTOR OR SUBGRANTEE               UNALLOWABLE COSTS
      2007-WR-AX-0085        LP                                       $ 292,252
      2007-WR-AX-0085        SASNWNM                                     282,910
      2007-WR-AX-0085        FF                                           39,932
      2007-WR-AX-0085        JJ                                           23,559
      2007-WR-AX-0085        HCSATS                                       11,950
      2007-WR-AX-0085        EWD                                          11,095
      2007-WR-AX-0085        JB                                            3,379
      2007-WR-AX-0085        TLPI                                          3,293
      2007-WR-AX-0085        SH                                            1,912
      2007-WR-AX-0085        EP                                            1,300
      2007-WR-AX-0085        LL                                              750
      2007-WR-AX-0085        JS                                              652
      2007-WR-AX-0085        MV                                              500
      2010-WL-AX-0003        SG                                            8,973
      2010-WL-AX-0003        MC                                            4,802
      2010-WL-AX-0003        BHI                                           2,023
      2010-WL-AX-0003        SM                                            1,125
      2010-WL-AX-0003        SB                                              270
      2010-WL-AX-0003        JV                                              105
       Total Unallowable Contract and Subgrant Costs:                  $690,782
Source: NMCSAP contracts, subgrants, and accounting records




       15
           Proper names and the names of contractors and subgrantees have been
abbreviated to use their initials. Additionally, differences in the total amounts are due to
rounding. The sum of individual numbers prior to rounding may differ from the sum of the
individual numbers rounded.




                                             34

UNSUPPORTED PERSONNEL COSTS

                     TRANSACTION                                   UNSUPPORTED
   AWARD NUMBER          DATE         TRANSACTION DESCRIPTION         COSTS
  2007-WR-AX-0085     09/01/2009  MD                                 $ 2,784
  2007-WR-AX-0085     09/29/2009  KB                                   1,652
  2007-WR-AX-0085     09/29/2009  MD                                   2,784
  2007-WR-AX-0085     10/14/2009  MD                                   2,083
  2007-WR-AX-0085     12/11/2009  KB                                   1,250
  2007-WR-AX-0085     02/25/2010  MD                                   2,083
  2007-WR-AX-0085     05/06/2010  KB                                   1,250
  2007-WR-AX-0085     07/15/2010  KB                                   1,252
  2007-WR-AX-0085     08/15/2010  MD                                   2,083
  2007-WR-AX-0085     11/15/2010  KB                                   1,250
  2007-WR-AX-0085     02/10/2011  MD                                   2,083
  2007-WR-AX-0085     04/29/2011  KB                                   1,250
  2007-WR-AX-0085     09/15/2011  MD                                   2,083
  2007-WR-AX-0085     09/07/2012  MD                                   2,083
  2007-WR-AX-0085     09/21/2012  MD                                   2,083
  2010-WL-AX-0003     12/20/2010  JK                                     625
  2010-WL-AX-0003     04/29/2011  TA                                   1,350
  2010-WL-AX-0003     10/14/2011  KA                                     210
  2010-WL-AX-0003     11/15/2011  KA                                     210
  2010-WL-AX-0003     03/20/2012  KA                                     210
  2010-SW-AX-0026     07/15/2010  KA                                   2,006
  2010-SW-AX-0026     12/07/2010  KA                                   2,006
  2010-SW-AX-0026     05/15/2011  KA                                   2,006
  2010-SW-AX-0026     07/31/2011  State of New Mexico: BHSD (NM)       1,085
  2010-SW-AX-0026     09/15/2011  KA                                   2,089
  2010-SW-AX-0026     12/31/2011  KH                                   1,085
  2010-SW-AX-0026     02/07/2012  KA                                   2,089
  2010-SW-AX-0026     05/22/2012  KH                                   1,085
  2010-SW-AX-0026     07/24/2012  KA                                   2,292
  2011-EW-AX-K004     05/15/2012  MD                                   1,195
  2011-EW-AX-K004     07/05/2012  MD                                   1,042
  2011-EW-AX-K004     08/07/2012  MD                                   1,042
  2011-EW-AX-K004     08/09/2012  KB                                     833
  2011-EW-AX-K004     08/09/2012  MD                                   1,042
  2011-EW-AX-K004     08/23/2012  MD                                   1,042
  2011-EW-AX-K004     09/07/2012  MD                                   1,042
  2011-EW-AX-K004     09/21/2012  MD                                   1,042
                              Total Unsupported Personnel Costs:     $54,683
Source: NMCSAP accounting records




                                      35

UNALLOWABLE PERSONNEL COSTS

                     TRANSACTION                                    UNALLOWABLE
   AWARD NUMBER          DATE         TRANSACTION DESCRIPTION          COSTS
  2010-WL-AX-0003     07/24/2012   CW                                 $ 383
  2010-WL-AX-0003     08/09/2012   CW                                     192
  2010-WL-AX-0003     08/23/2012   CW                                     192
  2010-WL-AX-0003     09/07/2012   CW                                     192
  2010-WL-AX-0003     09/21/2012   CW                                     192
  2010-SW-AX-0026     10/04/2011   NM Coalition                         4,580
                               Total Unallowable Personnel Costs:     $5,730
Source: NMCSAP accounting records and OJP’s GMS

UNSUPPORTED FRINGE BENEFIT COSTS
                     TRANSACTION                                    UNSUPPORTED
   AWARD NUMBER          DATE         TRANSACTION DESCRIPTION          COSTS
  2007-WR-AX-0085     04/04/2011  MD                                  $ 6,966
  2007-WR-AX-0085     12/05/2011  MD                                    2,172
  2010-WL-AX-0003     02/28/2012  State of New Mexico: BHSD (NM)           16
                          Total Unsupported Fringe Benefit Costs:     $9,154
Source: NMCSAP accounting records

UNALLOWABLE FRINGE BENEFIT COSTS
                     TRANSACTION                                   UNALLOWABLE
   AWARD NUMBER          DATE          TRANSACTION DESCRIPTION        COSTS
  2007-WR-AX-0085     10/07/2009   MD                                $ 1,200
  2010-WL-AX-0003     02/01/2011   United Healthcare Insurance Co.        56
  2010-WL-AX-0003     07/24/2012   CW                                     30
  2010-WL-AX-0003     07/24/2012   CW                                      3
  2010-WL-AX-0003     08/09/2012   CW                                     15
  2010-WL-AX-0003     08/09/2012   CW                                      2
  2010-WL-AX-0003     08/23/2012   CW                                     15
  2010-WL-AX-0003     08/23/2012   CW                                      2
  2010-WL-AX-0003     09/07/2012   CW                                     15
  2010-WL-AX-0003     09/07/2012   CW                                      2
  2010-WL-AX-0003     09/21/2012   CW                                     15
  2010-WL-AX-0003     09/21/2012   CW                                      2
  2010-SW-AX-0026     01/01/2011   United Healthcare Insurance Co.     2,438
                           Total Unallowable Fringe Benefit Costs:   $3,792
Source: NMCSAP accounting records and OJP’s GMS




                                        36

UNALLOWABLE COMPENSATION

                                              TRANSACTION                UNALLOWABLE
   AWARD NUMBER         TRANSACTION DATE       DESCRIPTION                  COSTS
  2007-WR-AX-0085    06/30/2009 – 9/21/2012 KB                             $ 139,997
  2007-WR-AX-0085    06/30/2009 – 9/21/2012 MD                                235,942
                       Total Unallowable Compensation Costs:                  $375,939
Source: NMCSAP accounting records

UNSUPPORTED OTHER DIRECT COSTS
                    TRANSACTION                                            UNSUPPORTED
   AWARD NUMBER         DATE            TRANSACTION DESCRIPTION               COSTS
  2007-WR-AX-0085    03/19/2008     MD                                      $ 2,497
  2007-WR-AX-0085    08/25/2009     American Express                         25,049
  2007-WR-AX-0085    10/29/2009     KA                                        4,000
  2007-WR-AX-0085    11/01/2009     KA                                        4,000
  2007-WR-AX-0085    11/13/2009     KA                                        5,000
  2007-WR-AX-0085    10/06/2010     KA                                        8,704
  2007-WR-AX-0085    12/22/2010     MD                                        7,043
  2010-WL-AX-0003    07/18/2012     JV                                        1,500
  2010-SW-AX-0026    12/31/2010     EB                                           77
  2010-SW-AX-0026    02/28/2011     American Express                            380
  2010-SW-AX-0026    08/08/2011     Airlines                                    401
  2010-SW-AX-0026    08/31/2011     Community Against Violence                  584
  2010-SW-AX-0026    10/13/2011     Great Lakes Aviation                        234
  2010-SW-AX-0026    10/28/2011     American Artists Gallery House B&B        1,609
  2010-SW-AX-0026    11/10/2011     Restaurants                                 201
  2010-SW-AX-0026    11/14/2011     DR                                          387
  2010-SW-AX-0026    11/14/2011     LB                                           52
  2010-SW-AX-0026    11/15/2011     KA                                           66
  2010-SW-AX-0026    12/13/2011     Amiga Bookkeeping, LLC                    1,712
  2010-SW-AX-0026    02/16/2012     Southwest Airlines                          222
  2010-SW-AX-0026    02/16/2012     Southwest Airlines                          127
  2010-SW-AX-0026    03/05/2012     All World Travel                            284
  2010-SW-AX-0026    03/30/2012     MP                                          149
  2010-SW-AX-0026    07/13/2012     Southwest Airlines                          824
  2010-SW-AX-0026    08/01/2012     Southwest Airlines                          387
  2010-SW-AX-0026    08/06/2012     Hotel                                       186
  2010-SW-AX-0026    08/06/2012     Hotel                                       218
  2010-SW-AX-0026    08/08/2012     Hotel                                       220
  2010-SW-AX-0026    08/08/2012     Hotel                                       220
  2010-SW-AX-0026    08/08/2012     Hotel                                       218
  2010-SW-AX-0026    08/08/2012     Hotel                                       184
  2010-SW-AX-0026    08/08/2012     Hotel                                       215
  2010-SW-AX-0026    08/08/2012     Hotel                                       214
  2010-SW-AX-0026    08/08/2012     Hotel                                         5
  2010-SW-AX-0026    08/08/2012     Hotel                                         5
  2010-SW-AX-0026    08/21/2012     Hotel                                       372
  2010-SW-AX-0026    08/22/2012     Hotel                                       662
  2010-SW-AX-0026    08/22/2012     Hotel                                       440
  2010-SW-AX-0026    08/22/2012     Hotel                                       440



                                         37

                    TRANSACTION                                      UNSUPPORTED
   AWARD NUMBER         DATE            TRANSACTION DESCRIPTION         COSTS
  2010-SW-AX-0026    08/22/2012   Hotel                                   440
  2010-SW-AX-0026    08/22/2012   Hotel                                     2
  2010-SW-AX-0026    08/26/2012   Hotel                                   898
  2010-SW-AX-0026    09/08/2012   Hotel                                  (218)
  2010-SW-AX-0026    08/30/2012   Hotel                                  (220)
  2010-SW-AX-0026    09/04/2012   Hotel                                  (220)
                             Total Unsupported Other Direct Costs:     $69,769
Source: NMCSAP accounting records

UNALLOWABLE OTHER DIRECT COSTS
                     TRANSACTION                                     UNALLOWABLE
   AWARD NUMBER          DATE          TRANSACTION DESCRIPTION          COSTS
  2007-WR-AX-0085     09/01/2009    KA                                 $ 2,400
  2007-WR-AX-0085     09/29/2009    KA                                   4,000
  2007-WR-AX-0085     09/30/2009    KA                                   4,200
  2007-WR-AX-0085     10/19/2009    MD                                   4,500
  2007-WR-AX-0085     10/29/2009    KA                                   4,000
  2007-WR-AX-0085     11/01/2009    KA                                   4,000
  2007-WR-AX-0085     11/13/2009    KA                                   5,000
  2007-WR-AX-0085     11/13/2009    KA                                     704
  2007-WR-AX-0085     10/06/2010    KA                                   8,704
  2010-WL-AX-0003     11/08/2010    El Paso Times                          594
  2010-WL-AX-0003     03/15/2011    Southwest Cyberport                     35
  2010-WL-AX-0003     04/04/2011    American Express                         3
  2010-WL-AX-0003     12/12/2011    Far West Video                         241
  2010-WL-AX-0003     01/11/2012    Far West Video                         562
  2010-WL-AX-0003     01/12/2012    Far West Video                          80
  2010-WL-AX-0003     06/14/2012    Southwest Cyberport                    121
  2010-WL-AX-0003     07/16/2012    Southwest Cyberport                    121
  2010-WL-AX-0003     08/16/2012    Southwest Cyberport                     78
  2010-SW-AX-0026     09/30/2010    American Express                       147
  2010-SW-AX-0026     10/04/2010    NM Gas Co                               18
  2010-SW-AX-0026     10/04/2010    PNM                                     97
  2010-SW-AX-0026     10/25/2010    American Express                       147
  2010-SW-AX-0026     11/29/2010    American Express                       147
  2010-SW-AX-0026     12/31/2010    American Express                       147
  2010-SW-AX-0026     12/31/2010    EB                                     160
  2010-SW-AX-0026     01/06/2011    NM Gas Co                              164
  2010-SW-AX-0026     01/06/2011    PNM                                     46
  2010-SW-AX-0026     01/25/2011    American Express                       147
  2010-SW-AX-0026     02/08/2011    NM Gas Co                              196
  2010-SW-AX-0026     02/08/2011    PNM                                    114
  2010-SW-AX-0026     02/28/2011    American Express                       111
  2010-SW-AX-0026     02/28/2011    American Express                       147
  2010-SW-AX-0026     03/08/2011    NM Gas Co                              198
  2010-SW-AX-0026     03/08/2011    PNM                                     96
  2010-SW-AX-0026     03/29/2011    NM Gas Co                               79
  2010-SW-AX-0026     03/29/2011    PNM                                     83



                                        38

                     TRANSACTION                                    UNALLOWABLE
   AWARD NUMBER          DATE          TRANSACTION DESCRIPTION         COSTS
  2010-SW-AX-0026     04/04/2011   American Express                       147
  2010-SW-AX-0026     05/03/2011   NM Gas Co                               48
  2010-SW-AX-0026     05/10/2011   PNM                                     88
  2010-SW-AX-0026     08/31/2011   Community Against Violence             160
  2010-SW-AX-0026     09/21/2011   Amazon.com                             555
  2010-SW-AX-0026     11/08/2011   TM                                     325
  2010-SW-AX-0026     11/14/2011   DR                                      99
  2010-SW-AX-0026     11/14/2011   LB                                      26
  2010-SW-AX-0026     11/15/2011   KA                                     181
  2010-SW-AX-0026     12/01/2011   Extra Space Storage                    158
  2010-SW-AX-0026     12/14/2011   XPEDX                                   85
  2010-SW-AX-0026     01/01/2012   Extra Space Storage                    158
  2010-SW-AX-0026     03/01/2012   KJI                                    175
  2010-SW-AX-0026     03/07/2012   KJI                                    175
  2010-SW-AX-0026     03/08/2012   KJI                                    235
  2010-SW-AX-0026     04/01/2012   Extra Space Storage                    158
  2010-SW-AX-0026     05/24/2012   NM Gas Co                               25
  2010-SW-AX-0026     05/24/2012   PNM                                     88
  2010-SW-AX-0026     06/01/2012   Extra Space Storage                    158
  2010-SW-AX-0026     07/13/2012   Southwest Airlines                      20
  2010-SW-AX-0026     08/06/2012   Hotel                                   34
  2010-SW-AX-0026     08/08/2012   Hotel                                   34
  2010-SW-AX-0026     08/19/2012   BC                                     249
  2010-SW-AX-0026     08/19/2012   CG                                     249
  2010-SW-AX-0026     08/19/2012   SG                                     249
  2010-SW-AX-0026     08/21/2012   Hotel                                   68
  2010-SW-AX-0026     08/24/2012   EC                                     249
  2010-SW-AX-0026     08/26/2012   Hotel                                  204
  2011-EW-AX-K004     09/04/2012   KF                                     266
                            Total Unallowable Other Direct Costs:     $46,253
Source: NMCSAP accounting records and OJP’s GMS




                                        39

                                                                  APPENDIX IV


New Mex ico Coalition of Sexual Assau lt Programs , Inc.


3909 Juan Tabo NE, Su ite 6 Albuquerque, New Mex ico 871 1 I
(505) 883·8020 (505 ) 883·7530 (FAX)


    July 1, 2013




          of the Inspector General
    Denver Regional Audit Office
    1120 Lincoln Street, Suite 1500
    Denver, CO 80203


    Regarding Draft OIG Audit of:
    Grant Nos. 2007·WR·AX·0085 (Rural)
    2010·WL·AX·0003 (LAV)
    2010·SW·AX· 0026 (GTC)
    Cooperative Agreement No. 2011·EW·AX·K004 (AL.L.)

   The New Mexico Coalition of Sexual Assault Programs, Inc. (NMCSAP) received the
   draft audit report dated May 28, 2013 . In some instances, we agree with the auditor's
   findings and reconunendations; however, there are a number of instances where we do
   not agree with the findings. There are a number of instances in the audit report that we
   would like to clarify and have corrected, based on additional information or facts that
   we have included in this response.

   The NMCSAP has historically been a relatively small non·profit organization with
   limited fimding and resources. As a result, financial management and arumal auditing
   was not required nor a regular practice. However, after securing the increased levels of
   state and federal funding within the last six years, the NMCSAP recognized the need
   to develop financial management infrastructw"e and procedures necessary to ensure
   that we adbere to all state and federal grant guidelines. As a result the NMCSAP
   created or revised and implemented more robust persoIlllel policies and procedures,
   board by·laws, financial procedures including contract development and approval, and
   timesheet review and approval. These were reviewed and approved at the Board of
   Director's Retreat on March 17, 2012. The implementation of these internal controls
   resulted in a successful 2012 audit with minimal findings . The auditor, who
   specializes in preparing single audits for non-profits who receive federal funding, was
   astounded at the considerable improvement in less than a year.




                   e-mail: tlt11csap@swcp .comWEBSite:hllp: /lw\r.Jw.llIncsap.org




                                       40

CAN Rcqu.in."lIltnt

11le OJP Financial Guide distinguishes between a sub-award which rcquires a GAN or
budget approval, and a sub-contract which does IIOt. "    111e Guide states that a sub­
contractor providcs goods and services while a suh-award is for the perfo nnanec o f the
substance of the grant activity. '111e challenged e:--'Penses and contracts in this grant
relate to services and not pcrfonnanec of the suhstanee of the grant work. (Sec OJP
Financial Guide 20 11, Key Terms at:

         http://www.o jp.gov/fi nancialguide/GeneralInformalion/index.htm#d

and also Sub-recipient Monitoring at the same site). '111e guide docs not state that a
GAN or preapproval is required lor any sub-contractor for goods and services.

111e 2012 OVW Financial Guide states on page 47 that a G AN is requi red when a
contract is lo r work that is "central to the purposes of the grant". 111 challenged
                                                                         e
contracts arc not central to the purposc of the grant, they arc supportive services such
as conduct ing inten 'iews, doing background investigation, videotaping a deposition,
advcrti sing a contract--all of which arc secondary and supportivc of the primary
purpose of the grant, which is to provide legal re presentation. 111e Guide specifically
notes that gcncral support services arc not subject to the G AN requirement (unless the
rate of compensation exceeds fe deral pre-approved rates of compensation).

NMCSAI' response to the recomm end ations to the OVW:

   1. Oevelop policies a nd procedur es to ensu re oonllicts of interests are
       IIwlidcd lind fair hirin g lind contracting pl1lcticcs arc fo\lowcd .


Respon se : Policies and procedures are 111 place and followed. 111e NM CSA P di sagrees
that there are conflicts of interest and that fair h iring and contracting practices were
not fo llowed. All pos itions both contract and full and part-time empl oyees, are hired
by the Executive Director.

Because the NMCSAl' is a small organization with limited financial resources,
program development and grant writing fund s are nonexIstent. 111erefore, the
individuals who write grants for the Nf..·ICSAl' do so as volunteers as a pro bono
service. Although the mdi vidual identified withm the OIG drall audit report does have
a private consulting company, this individual has never been paid for grant writing or
granlmanagem ent ~erv i ces as a member orthat company. Also, because grant writing


                                                                               2 1 Page




                                     41

services are perfonned pro bono and writing federal and state proposals are
monumental tasks, these responsibilities arc shared by multiple NMCSAP volunteers.

New Mexico is a large, rural state with a small population and limited human
resources. When we find talented individuals with effective management and
organizational skills, these individua ls serve in multiple roles of resJ)Qnsibility.
Because New Mexico is a rural state with limited funding resources and human
resources, word of mouth is an effective recmitment tool for small non-profit
organizations that do not have an advertising budget.

TIle Project Assistant was hired because o f her exceptional organizational experiencc
as identified in the attached resume. 'Illis individual was hired in 2005 and was
retained because ofth cir qualifications and perfonnance. Because this person servcd
in a part-time capacity, this individual was pursued and received other employment
opportunities rcsulting from perfomlance and abilities.

TIle Project Director's spouse has worked as a volunteer and a contractor for the
NMCSAP for over ten years. "Ibis individual has contributed COlUltiesS lUlpaid hours
to the NMCSAP as a volunteer and through pro bono services. He was hired and
supervised as a contractor by the Executive Director and not the Project Director. 'Ibis
individual has no relation to the Executive Director and perfomled under her
supervIsion. Because o f the SUpeTl OT service provided, additional contracts were
awarded to this individual. 'Ibis person holds a doctorate degree and has e~1e nsi ve
experience m grant proposal and report writing, project management, and data
collection and project evaluation. Also, this individual is an advocate with e~ e nsive
                                                                               1
experience m providing support to victims and to SurV   IVOrs of cnme, natural di saster,
and finan cial hardship.

"lbe Project Director has a pennanent disability as defined by the Am ericans with
Disabilities Act. In addition to the duti es provided m support of Gnmt No. 2007-WR­
A-X-0085, the Project Director's spouse also traveled with her as a reasonable
accommodati on under the ADA. Through their volunteer and contractor servi ces, the
NMCSAP was able to receive a level of service that would not have been achievable
with any othcr individual in the state. 'Inc NMCSAP has been transparent and has
always identified this individual as providing a reasonable accommodation to the
Proj ect Director for required travel purposes. "Ibis reasonable acconUllOdation, as
defined by the ADA, is always documented on all approved travel reimbursements and


                                                                                  3 1 Page




                                      42

has been approved by OVW. This person has a history of providing a reasonable
accommodation to the Project Director. He provided the same reasonable
accommodation as docmnented by the Florida Attorney General's Oflice where the
Proj ect Director served as the Bureau Chief for Victim Advocacy and Grants
Management and in the New Mexico Attorney General' s Office as Director of Victim
Services.

   2. Remedy the S91,051 in unsupported excess drawdowns.

Response : NMCSAP does not agree with this recommendation.

Accountant has been working full-time at NMCSAP since July 20 12 (she was part
time sinec January 2010). Fiscal policies and procedures are in placc and fo llowed.
Accountant is in regular commmlication with the auditor, who specializes in
pcrfomling singlc audits ofnon-prolits that receivc federal fundin g.
Accountant has prepared a document showing all expenses for 2007- WR-AX-0085
(Rural) to match the amount drawn down from OVW. An additional Excel sheet
demonstrating the wages paid to the Program Director and Project Assistant is also
attachcd.

   3. Develop policies and procedures to ensure that cumulatin drawdowns do
       not exceed cumulative expellditurl'S.

Whil e all drawdowns for each grant in question have been based on 'cost
reimbursement' practice, the NMCSAl' agrees that a more fonnal means of
mamtammg the documentation was necessary. The now fu ll-time accountant has
developed a monthly draw down schedule based on direct, documentable existing
expenditures.

   4. Remedy the S690,782 in unallowable contract and sub grant expenditures
      and the S2,688 in unsupported contract expenditures.

..he NMCSAl' does not agree that the $690,782 identified by the auditors is
unallowable. All expenses were directly related to the goals and objectives for Grant
Nos. 2007-WR-A.,."'\-0085. We provided contracts IUId subgrant expenditures to the
auditors in support ofth cse costs. New Mexico is a mral state. Prior to 2012, the
NMCSAP's practice was to send and receive contracts via electronic communication


                                                                             4 1 Page




                                    43

and to accept electronic signatures_However since 20 12, the NMCSAP has
implemented more fomlalized, structured contract development, distribution and
approval processes that reqUire an original signature.

We believe that                               contract, a company specializing in
Native American                                 is an allowable cost because it directly
related to the goals and objectives for Grant No. 2007-WR-A. x-0085. A compact disc
                                                              "
(cd) was provided to thc auditors that included the two Nativc American specific
public service announcements that were created. However, we do agree that the
contract was not propcrly executed. Since 2012, the NMCSAP's has implemented new
procedures and processes to cnsure contracts are properly created with original
signatures.

The NMCSAI' does 1I0t believe in the auditors' perceived confli ct of interest for the
contract in the amount of $40, 500.00 for which $39,931 .50 was paid from Grant No.
2007-WR-A."'\-0085. As stated above, thIs IIldividual has worked as a volunteer and a
contractor Jor the NMCSAP [or over tC years. This individual has contributed
                                          II
countless unpaid hours to the NMCSAP as a volunteer and through pro bono services
and was hir.'!d and supervised as a contractor by the Executive Director and not the
Proj ect Director. TIlis person has no relation to the Executive Director and perfonned
under her supervision. Because of the superior service provided, additional contracts
were awarded to this individuaL This person holds a doctorate degree and has
e:-..1ensive experience in grant proposal and report writing, project management, and
data collection and project evaluation. Also, this IIldividual is lUI advocate with
cxtcnsi ve experiencc in providing support to victims and to survivors of crimc, natural
disaster, and financial hardship.

111e Project Director has a pemlanent disability as defined by the Americans with
Disabilitics Act. In addit ion to the duties provided in support of Grant No. 2007-WR­
AX-0085, this pcrson also traveled with the Project Director as a reasonablc
accommodation under the ADA. Through their volunteer and contractor services, the
NM CS AP was able to receive a level of service that would not have been achievable
with any other indi vidual in the state_"Ille NMCSA I' has been transparent and has
always identified this individual as providing a reasonable accommodation to the
Proj ect Director for required travel purposes_"Illis reasonable accommodation, as
defined by the ADA, is always documented on all approved travel reimbursements and
has been approved by OVW. TIus person has 11 history of providing a reasonable


                                                                              SI Pase




                                    44

accommodation to the Project Director. He provided the same reasonable
accommodation as doelmlcnted by the Florida Attorncy General 's Office where the
Proj ect Director served as the Bureau Chief for Victim Advocacy and Grants
Management and in the New Mexico Attorncy General's Office as Director of Victim
Services.

The NMCSAP agrees with the auditors that we did not notify OVW of this possible
conflict of interest. In the future, the N MCSAP will ensure that OVW is immediately
notified of any appearance of a conflict of intercst for all contracts.

Additionally, the NMCSAP disagrces that there wa." $2,688.00 in unsupportcd
contract expenditures for Grant No. 2007-WR-AX-0085. Please see the attached
signed contract as docLUllCntation to support this cost as an allowable expense. This
individual was contracted as a presenter at the rural conference which was in
fulfillment of an identified goal and objective approved by OVW.
Regarding expenses related to 20iO-WL-AX-0003 (LA V), we believe a remedy is
lIIUlccessary for these expenditures as they were allowable a.~ noted in the section
above concerning GAN requirements.

   5. Dcvelop policics and pnlccduITS fo .. adcquate monitoring of contrnctors
      and subgnmtees.

..he NMCSAI' has revised all Coalition policies as of 3-17- 12 to strengthen our
monitonng of contractors and subgrantees. All program directors will provide a site
visit to each subgriUltee a minimum of once every 18 months. Once per year,
subgrantees mlL"t submit documentation for one month of 1I1voicing a." spot requested
by our accountant. Additionally, subgrantees must submit a copy of their audit
annually which is reviewed by our accountant.

The NMCS AP agrees that we need to enhance our CUTTent monitonng of contractors
and subgrantees. However, we would like to note that project staff does meet regularly
with subgrantees and contractors. Rural subgmntees, which are located 111 opposite
ends of Ollr large, rural state and several hundred miles apart, travel to Albuquerque,
New Mexico to participate in quarterly face-to-face meetings. In addition, subgrantees
participate in monthly and bi-weekly conference calls regarding grant implementation.
Proj ect staff travels to the subgrantee locations for trainings iUld other grant related
activities. NMCSAP staJfwill work with OVW, subgrantees, and contractors to


                                                                              61 Page




                                     45

enhance our current monitoring processes and procedures which will include a review
of financial documentation.

For 20 10-WlrAX-0003 (LA V), the procedures are in place. Low bono attorneys and
partner agencies are provided with regular and emergency supervision by the Project
Director. Clients arc asked for feedback on pctfonnance of these entitics. Direct
observation of the work of these parties is also part of the monitoring of their work.

    6. DeveloJt policies and procedures to maintain complete a nd apprond
       ti.mesheets with OIiginal signatures, and ensure that paychecks are issued
       after completion and verification of all em Jtloyee time for the pay period.

Personnel policies and procedures were revised to insure that employees provide
timely documentation prior to obtaining a paycheck. For state fi scal year 14 (July I
2013-June 30 20 14), accountant has instituted direct deposit electronically as approved
by the board as a means to insure that all time sheets are completed and reviewed in a
timely manner. A new time shcet was instituted in July 2012 designed to bcttcr capture
per grant hours each pay period.

    7. Remedy the S73,359 in questioned pllymll costs, including $54,683 in
       unsupported peMolUlel expenditures, S5,730 in wmllowable peMolmel
       expenditures, SI0,354 in unsupported fringe henefit expenditures, lind
       S2,592 in unallowable fringe benefit e.x penditUl"Cs.

..h e NMSAl' disagrees with the listed questioned payroll costs. Time sheets are
attached ror a portion ofthe questioned expenses.

In regards to the accountant not being listed in the on g1l1al budget for 2010-WL-AX-
0003 (LA V), a remedy is unnecessary for the questioned expense as the funds were
authorized 111 the budget for a finan cial stafT person and one 1I1di vidual was substituted
for another when a new staff person filled a previously open posit ion . ..h e NMCSAP
believes that using the fLmds ror an actual accountant instead or an eXIsting stafT
member was a more effective use of the funds.

The NMCSAP will provide detailed documentation on each onhe listed items.




                                                                                 7 1 Page




                                      46

   8. Remedy the S375,939 in unallowable compensation for multiple full-lime
      salaries paid to the same employees.

The NMCSAP disagrees with the finding that there is $375,939 in unallowable
compensation for multiple full-tim e salaries paid to the same employees for Grant No.
2007-WR-t\..."'<-0085 and Cooperative Agreement No. 2011-£W-AX-K004. In eases of
compensation for multiple full-tim e salaries paid to the same employees, all positions
and the individuals filling those positions were included in the grant proposal budget
and budget narratives that was submitted and approved by OVW. These posit ions
were neither identified nor scoped as full time positions within the proposal. In
addition, these positions were reported as part-time positions on all OVW approved
semi-annual reports since 2007. Furthennore, the original OVW request for proposal
did not requi re that any position be full-tim e. New Mexico has limited human
resources. Many NMCSAl' staff perfonns in multiple rolls with varied
responsibi lities. As a small non-profit organization, we must recruit and retain highly
functioning, multitasking individuals.
TIle NMCS AP has been transparent in ilS identification of individuals who are
performing grant tasks. When Grant No. 2011- £W-AX-K004 was awarded, the
Proj ect Director contacted the OVW Grant Manager on February 13 , 2012 and
requested that the salary that was awarded in the grant be reallocated and shared
between the Project Director and the Project Assistant. A GAN was submitted and
approved. Please see attached docmnentalion.

   9. Remedy the $92,920 in unsupporled other direct costs and $46,253 in
      unallowable other direct costs.

..he NMCSAl' disagrees with the finding that there are $92,920 in unsupported direct
costs and $46,253 III unallowable direct costs for Grant Nos. 2007- WR-AX-0085,
20 10-WL-t\...'\-OOO3, and 20 10-SW-AX-0026, and Cooperative Agreement No. 2011-
EW-AX-K004.

Please see the attached contract and hotel receipt for the Ultimate Tram the Trainer
training event that was held in Santa Fe, New Mexico in September 2011.

Please see the attached documentation in support of the questioned coslS for
Cooperative Agreement No. 2011-£W-AX-K004.



                                                                               8 1 Page




                                    47

Prior to 2013, the NMCSAP provided an option to staff regarding health benefits _If an
indiv idual had health insurance from another source, the NMCSAP would pay the
stafTmember directly for any out-of-pocket health related costs up to a eertalll amount.
The NMCSAP paid Health Benc1its in the amount of $ I,200.00 to the individual in
question. Please see the attached receipts which document $1,272.63 in health related
e>.."p enses that this individual paid out-of-pocket for 2009_

Please sce the attached documentat ion in support of the questioned costs to
                      $ 12,967.48 for payment of20 11 Advocacy in Action conference



A NMCSAP Project Director was reemited to assist the national conference planning
committee to identify and secure an accessible hotel for the National Professional
Training Conference on I{esponding to Crime Victims with Disabilities_'Illis national
training event was held on September 30-0ctober 2, 2009 at the Denver Convent ion
Center III Denver, co. In addition to her regular Project Director dut ies, the NMCSAP
asked this individual to prepare and deliver multiple workshops at this training event.
BecalL~e the NMCSAP believed this wa~ additional work, outside of this individual's
regular duties, the NMCSAP compensated her for $4,500.00.

Please see the attached docum.::ntation
the $7,043_ payment for _
            00                          printing_

Please sec the attached documentation III support orthe DOJ Rural Grantee meeting III
Washington, D.C. in January 2008. A copy orthe fl yer announcing the DOJ Rural
Grant.::e meeting, the meeting booklet cover, and one of the PowerPoint Presentations
presented at the meeting_Also attached is the NMCSAP r.::imbursement request fonn
which itemizes each expense for the Project Di rector including the personal care
assistant as a reasonable accommodation in compliance with the Americans with
Disabilities Act.

Documentation will be provided to OVW detai ling all other questioned costs.

    10. Develop policies and procedures to document exp enses as properly
        a uthorized, expenses are accurately recorded and classified ill the
       accountin g records, receipts are maintained for aU grant and cooperative



                                                                             91 Pase




                                     48

       agreement credit card purchases, and the general led ger entries are
       detailed enough to trace expenditures to supporting documentation.

Policies and procedures arc now in active pmctice to document that all expenses arc
properly authoril.ed, expenses are accurately recorded and classified in the accounting
records, receipts are maintained for all grant and cooperative agreement credit card
purchases, and the general ledger entries are detailed enough to trace e~,.p enditures to
supporting documentation. A statfmember, separate from the accountant, tracks each
credit card purchase and receipt, attaching all receipts to the credit card bill on a
monthly basis. Accountant then utilizes this documentation to allocate each charge to
the appropriate budget itcm.
Additionally, all travel by staff, participants, and contractors, must include a
NM CS AP travel fonn attached to all receipts and documentation showing the reason
for travel. Travel is not reimbursed without each of these items in place.

   11. Develop policies and procedures to ensure the ac(:uracy of FFRs and
        maintain documentation to support FFRs.
FFR 's are scheduled on the accountants wall calendar, and computer calendar with a
phone reminder. Amounts recorded on the FFR 's match exactly the amounts on the
accounting sheets generated from the NMCSAP accounting program.

    12. Develop policies and procedures to ensure timely submissions of progress
       reports.

All progress reports for 2007-WR-AX-0085, 201O-WL-AX-0003 (LA V) and
Cooperati ve Agreement No. 2011-EW-AX-K004 were submitted in a timely manner.

For 20 10-SW·AX·0026 (GTC) the Executive Director has included progress report
reminders on her phone and computcr to insure timely delivery of all reports in the
futurc.

   13. Develop policies and procedures 10 maintain supporting documents for
       infommtion reported in progn.'Ss I"l'ports at the time the progn.'Ss report is
       completed.

The NMCSAP does agree that methods for supporting dOC   lmlentation on all grants
lmd cooperati ve agreements nced to be enhanced and monitored more closely. New


                                                                              l OI Pase




                                     49

procedures have been implemented to provide more qualitative and quantitative data
to support the semi-annual reports. This docmncntation will be uploadcd each month
on the Gl"vIS system as an accompaniment to the progress report. Additionally, all
project directors will keep a fil e of supporting docmnentation that will be maintained
for each Progress Repol1 submitted.

    14. En sure gr.l.llts :11"t' dosed out in a timely manner and in :Icconhlllce ~' ith
        the 2() J2 OVW Final/cial Grallls MalJagemelll Guide.

"l11is occurred only once following a very long nlll of a Grants to Coalition OVw
grant. We simply wcrc not accustomed to the change from a continuation grant to an
alUlUal grant. '1l1e Executive Director will follow all federa l grants closely each year to
insure that all granL~ arc properly closcd oul in a timcly fas hi on.




Addiliolllil information fo.· 2007-WR-AX-0085 (Rural) and Coopcratin
Agreement No. 2011-t;W-AX-KOO4 (A.L.L.):

   _    All timesheets and IIlvoices fo r any work houn; questioned were suhmitted lind
        are included in the documentation we have pro\~ded to you.


   -   ~",«Isheo~


        question.
                     B Line Item l 7 - Certificates of completion are attached for
                                         to document attendance at the trall1l1lg 111



   _    Spreadsheet B Line Item l 8 Attached is the origina l invoice from the Marriott
        for $64,343.33 for the 2009 Rural Conferencc. American Express pennits only
        incremental payment ortarge bills, up to $25,000 at a time. The 49.33 (three
        charges to Marriott for 3.74, l 5.74 and 29.85) were for copies that presenters
        requested on the day onheir presentation at the conference. - These amounts
        total the $25,049.33 in question.

   _   "lhe NMCSAP agrees with the fina l item listed on excel sheet "Questioned
       costs fo r Coopreative Agreement No. 2011-EW-AX-K004" ($266.29) elTlUlt
       allocation of expense. 'Ihe NMCSAP accountant will correctly allocate this
       expense to the ruml grant (2007-WR-AX-0085) and documentation will be


                                                                                111 Page




                                      50

       availabl e to OIG and OVW_ (Staff person in question, disability advocate,
       attended this training in order to enable her to work more effectively with the
       Rural Coordinators.)



Addiiionallnfol1nation Specific to Grant 2010- \vL-AX-OOOJ (LA V)

The findin gs listed on page ii. as to this grant number descrihe $17,298 as unallowable
contract costs, which does not exceed the contractual budget category allocation of
fu nds, and docs not amount to 10% of the total award, so the need fo r a GAN is not
tri ggered_ No change in scope of the project has occurred as all legal services by any
lawyer in any jurisdiction are contingent upon adequate investigation by counsel.
Failure to do so can lead to being sanctioned for taking legal action without adeq uate
basis. In cases where the law enforcement response was inadequate or not utili:c:ed,
some degree of investigation is needed to comply with this duty. Similarly, if
opposing counsel escalates representation such that additional witnesses are necessary
or deposition costs are incurred, those costs are understood to be nomlal customary
                  I        . Expenses associated with i''''''''~~~
                             intcrvicw) and with discovery
""vi,,,   w ,"""." ."""Ii,,1   to the holistic representation
cases where they were utilized.

TIle monitoring of contractors and sub-grantees under this grant is conducted through
personal observation of the dclivery of services, client feedback, and continuous
mentoring by the project sta11.

Employee time is monitored by timesheet, supported by either hard copy records of
clicnt services, or database time rccords.

Questioned payroll costs relate to a suhstitution of an accountant for the Executive
Director when an accountant position was fill ed and the Executive Director was able
to transfer the financial management duties to the accountant. The approved grant
budget provided for finan cial management stafr costs.

The personnel costs of $2,605 cited 0 11 page 15 as unsupported personnel costs, relate
to empl oyees who were released from employment for failure to provide timesheets_
Knowl edge of their accomplished work is reflected in appearances in court, client
feedback, and written work product_



                                                                             12I Pase




                                    51

The Progress Report testing in the aggregate revealed more client service for the
testing periods that occur after the reporting deadline. For example, a client is
detenmncd to have withdrawn fro m service and a case fil e is retroactively closed
back-dated to the last cl ient contact, another example is when a lack of access to the
database delays entry and a case is opened retroactively. A database report can be run
at any time to document the client services being provided at any point in time by the
proj ect.

The goals listed on page 25 relate to the proposed period of testing, but the aclual
period of testing was the previous cycle of fundin g which did not include goal #6.

COSTS

                  expenditures consist of the the expense of doing video-taped
depositi ons of all witnesses for an Order for Protection hearing. This is a previously
unheard of e ~,:pense for this type of representation in our state and not anticipated.
Discovery for this kind of hearing is not a typical e:\ ]lense, but as it involvcs safety, it
                                                        "
is done on an expedited timeline without the minimum time [or a GAN.

_               is the expense for advertising Ugal Advocate positions in rural areas.

CONTRACTS

The Project Director works remotely for the Coalition from another state. "I11ere is not
total redundancy in record keeping of contracts at the two sites. When the Project
Director did not have a hard copy of the contract, she called the contractor and got




           in_
telephonic appro val. The hard copy contracts that were approved by phone have been
located and are attached.

The delay                    submission of the contract resulted from an lUlUsual
situation whcre she was hired to continue some time sensitive work that was begun by
someone else who suffered a sudden, major debilitating illncss. _              did not
require the 80 hour training that other applicants would have required 10 continue the
work, but she did not have a computer, fax, or scanner when she was hired. She
forwarded the contract as soon as she had access to a fax machine.

_         graciously fronlcd the expensc of a procesS server's fCc in an instance when
the need for professional service on an evasive witness for an Order [or Protection
case canle up suddenl y and our invoicing process would nol have provided thc
required fcc in time for the hearing.


                                                                                  13I Pase




                                       52

_            ' supplemental contract was inadvertently omitted from the contracts
provided previously. It is attached.

The contract f o r _ was located in hard copy and is attached.

                              is a private investigator's agency which was necessary to
engagc to comply with thc legal rcquirementto full y lIlvestigllle a claim prior to filing
any legal action. Facilitat ing investigation is mcntioned in the grant narrative.

_            is a national expert on cognitive and developmental disability. He trains
nationally on interviewing persons with disability. His rate is quite conservative for
his professional stature. His services were necessmy when a client with a
communication disorder had to be interviewed in order to assert her victim rights in
the criminal justi ce process(advocacy of this type is described in the grant narrative.
Poli ce interviewers did not recognize her disability and conducted an incoherent
interview which could not be used as the basis for any legal remedy.



PROGRESS REPORTS

Nineteen of the questioned items fo r progress reporting show documentation of
services exceeding that whi ch was reported. This disparity is explained by periodic
updates to client records which change the "count" retroactively within our database.

Testing Categories :

Report 3, number of people trained: training events were informal and did not include
sign in sheets or agendas. ·Ille events occurrences were documented.

Report 3, protection orders: The following additional clients were provided with this
assistance :md were inadvertently leO off the listing provided to the auditors- ll-LC-
000025, OS-OI-9900(}005, 08-FS:OlOOOO ll , and OS-OI -9900(}O I6.

Report 3, U Visa: Clients # Il-FM-000004 and 12-FM-OOOO I4 sought assistance with
V-Visas.

Report 3 and 4, Removal: Client # II- FM-000004 sought assistance with removal as
a result of an unpaid parking ticket.

Report 4, Training events and attendees : the fol1 owing training events were held-


                                                                               14 1 Page




                                      53

Advocacy in Action statewide training keynote (estimated 800 people in attendance
based on registration infonnation at the time of the reporting), SANE statewide
conference (estimated 200 people in attendance based on registration infonnation)

Solace staff traill ing (12 peopl e attended)

Community Against Violence staff training ( 13 people attended )

ARISE volunteer training (5 people attended)

Statewide Sexual Assault Coordinators training ( 20 people attended)

Silvcr City Legal Clinic (12 people attendcd)

Confidentiality Institute service providers training on confidentiality (23 people
attended)

Report 4, victim services by lawyers: When discussing this issue with the auditors, the
Proj ect Director made an error III responding to a question. All acti ve cases would
have had a safety plan made by a lawyer. All cl ients are served by a lawyer,
sometimes 111 addition to a non-lawyer advocate. The munber given was artificially
low as it refl ected only cases where the case manager is a lawyer.

Report 4, Consumer services: Client # ll-FM-OOoo lO was assisted with a debt she
was unable to pay.

Report 4, Housing: The fo llowing clients were provided with hous ing related
assistance- II-LC-000024, 12-0 1-99000004, II-I..c.000020, 12-01-99000003, 12-LC-
000042, ll-FM-000008, 12-LC-000035, l2-LC-000036, and 12-FM-000020.

Report 4, Immigration matters- a partner agency made an inconsistent accounting that
resulted in a dupli cated count of one client. 'Ib is error accounts for the 3 clients that
are not shown in the NMCSAP documentation.

Report 4, U-Visa: all clients provided services                    were seeking U-
Visas. This data was provided and counted in other                      but
inadvertently omitted here by auditors. Client#12-FM-OOOO I4 had a pending U· Visa
application.

Report 4, Other immigration mattcrs : Client # 12-LC-00003 1 sought assistance with
replacement of immigration docmnents.


                                                                                15 1 Page




                                       54

Report 4, Name change and SSN change: Client # ll-TA-000008 and 12-TA-000014
were provided with legal services relating to changing name and/or SSN for safety.




Thank you for the opportunity to review your detailed accounting associated with the
draft audit. We appreciate the chance to respond to the recommendations and look
forward to working alongside OVW to reassure and document our commitment to
fulfilling all grant and cooperative agreement requirements. The funds from OVW
have remarkably enhanced the work we are able to perform to enhance services to
victims of sexual violence. We look forward to strengthening our infrastructure and
practice in order to better serve the needs of victims and survivors in New Mexico.

Sincerely,

?     !il2---,
Kim Alaburda
Executive Director




                                                                          16 I P age




                                   55

                                                                                             APPENDIX V

                                                           l .S. llepurtmcnt uf .Iustkc

                                                           ()llil.'t: llll \H,knt:l.: \ g . III1' t \ \01111.'11




                                                                         I) ( '. '
                                                            "
                                                            Jun e :28. 2013



MEMO RAN D         M


TO:                               Dav id M. Shl.!crcn
                                  Regional Audit Manager
                                  Del1\-er Regional Audit O ffice

FROM:                             Sea llans on    X7~/
                                  Acting Director \ ~      1l
                                  Office o n V iolence ga inst W o men

                                  Rodney Samue ls       %
                                  A udit Liai so n StatT Accou ntant
                                  Office on Vio!....::nce Against \\' ome n

S BJECT :                         Res ponse to the D ra ft Audit Repo rt A ud it of the Office on
                                  Vio le n ce Aga inst Women Gran ts and C oope rative A g reement
                                  A ward ed to the New Mexico C oalition of S e x ual Ass ault
                                  Progr am s, Jnc. (NM C SAP) Albuqucrque. N c\\ Mexico


T h is m e morand um is in re spons e to ) o ur correspond e nce dated May 28. 2013 transmill ing the
above draft aud it report fo r th e M e SAP. 'W e con s ider t he s ubject report resolved and re ques t
written a cceptance of thi s ac tion from y o ur office.

The' re port c ontains fourteen rccomme ndations. S 183,971 in unsupported costs. S I ,066,721 111
un a ll owable ex pen ditu res. and 573,359 in q ues tioned pa:- roll cost. rhe Office on Violence
Agai nst Womcn (O VVI,/ ) is commiul;!d lO ,""orl..ing w ith th e g rantct> to a d dres s eac h
recolllmend at ion a nd bring thcm tu u cl osl.' a~ quich.ly as poss ibk. fhe lolluwing is o ur unal ~ s is
of the audit recomml!ndal ions .

      1) Devc lop p r oced u res to cnsure that conflicts of interest are a,\'oided and fair hiring
         .and contracti ng practices are followed.

         \ V e agree with th is reco mm cndatio n. We will cuordi n ate with the              MCSAP to develo p
         p rocedures to ens u re th a t conll ic ts or interl.!s t are avo ided a n d fair hiring and contracting
         practic es are folio,"" cd .




                                                     56

2) Remedy the       S91~051    in unsupported excess dl"awdowns .

      We agree w ith th e reco m.mendat ion. We w ill coord inate wi th NMCSAP to remedy the
      $91,05 1 in uns u pported excess drawdo v.'1ls .

3) Develop policies and procedures to ensure that cumulative drawdowns do not
   exceed cumulative expenditures.

      \Vc a g ree with th e recommendation. We will coordin a te \ ... jlh the MeSAP to dc \ cJop
      pol icies and procedures to e n sure that c umulat ive drawdO\. ns do not exceed c um u lative
      ex pe ndi tures.

"")   Remedy the S690,782 in unallowable contract and subgnlnt expenditures and the
      52,688 in unsupported contract expenditures .

      We a g ree wi t h the recomm e ndat ion. We wi ll c o o rdinate with th e MeSAP to remedy
      the $690. 781 in unall owable contract and subgram expend itu res nnd the $2.688 in
      uns uppo rted cont ract expe nditu res.

5) Develop policies and procedures for lldequilte monitoring of contractors and
   s ubgrantees.

      'We agree ,"vith the reco m menda lion. \).. e will co o rd in ate with the NMCS AP to de \- e lo p
      po licies and procedures for a.dequate m o n itor in g of co ntracto rs and sub g ran tees.

6) Develo p poliCies and proc e dures to m~lintain complete and approved timeshcets with
   o ri gi n a l si g natures , and ensure that paychecks arc issued after completion and
   verific a tion of all employee time for the pay period.

      We agree with the recomme ndali o n. \Ve will coord in a te wi lh NMCSAP to dc\"eJop
      p o lic ies and procedures to mai n tain complete and approved t im csh eets with o rigina l
      s ignatures. and ens u re that pa yc hec ks are iss ued afte r co mpletio n and ve rificati o n of a ll
      e mp loyee t im e for the p ay period.

7) Remedy the $73,.359 in questioned paYI'oll costs, including $5"&,683 in unsupported
   perso n n e l exp en ditures, $5,730 in uoallownblc personnel expenditures, $10,35"", in
   unsupported fringe benetlt expenditures , and $2,592 in unallowable fringe benetlt
   expenditures.

      \Ve agree \-vith the recommen dation. We v. ill coo rd inate \vilh Nr'vICS AP to remedy the
      $ 7 3.359 in quest io ned payroll cos ts. includ in g $54.683 i.n unsup po rted perso nnel
      ex pe ndi tu res. $5,73 0 in u nallowab le pe rsonnel expendi tu res. $ 10,354 in unsuppo rted
      fringe benefi t expe nditures. and $2.592 in unallowabh.: frin ge benefit ex pend itures.




                                                      2




                                                   57

8) Rem e dy the S375,939 in unallowable compensa tion for multiple fu ll-time salaries
   paid to fhe same employee.

   \Ve agree v.ilh th e recommendation. We wi ll c oordinate with NMCSAP to remedy the
   $375.939 in unall o \.\'abJ e compen sation for multiple full-time sa laries p aid to the same
   e m ployee.

9) Remedy the 592,920 in unsuppo rted other' direct costs and $ 46,253 in unallo,", able
   other direct costs.

   We agree w ith th e recom mendati on. We , ,,i ll coordinaLt.' v. ith MeSAP to remedy the
   $92.9 20 in UI1S lI PP(l rted other di rcl.: l costs and $-+6.2.53 in u n all owab le other direct costs .

10) Develop policies and procedures to document expenses as properly authorized.
    expen ses arc accurat e ly recorded and class ified in the accounting records, receipts
    are main ta in e d for all grant and cooperative agreement credit card purchases, and
    the genend ledger entries lire dehliled enough to tr~lce expenditures to the
    supporting documentation .

   We agree wilh the reco mmendation. We will coordinate \\ ilh NN1CSAP to deve lop
   po licies and procedures to doc umen t expenses a$ pro perly a u th ori zed , ex pe nses are
   acc u rate ly recorded a nd class ifie d in the account in g records, receipts are maintained for
   a ll grant and coop e ra tive agree ment c red it card purchases. and the ge nera] ledger e ntries
   are deta iled enough to trace expenditures to t h~ supporting d ocumen tation.

11) De\'elop policies and procedures to ensure the accuracy of FFRs and m aintain
    documenhltion to s upport the FFRs.

   \Ve agree w it h the recommend a tion . \V e wi ll coo rdina te with NMCSAP to deve lop
   pol icies and procedures to e n s u re the accuracy of FFRs and m a inta in do cumenta ti on          10
   slipport the FFRs.

12) Develop policies and procedures to ensure timely submissions of progress reports.

    \\'e agree v. ith th e reco mme ndatio n. \Ve w ill c oordinnte with Nl\.1CSAP to develo p
    po lic ies an d proced ures [ 0 ensure timely submiss ions of progress.

13) De\Ie lo p policies and procedures to maintain supporting documents for information
    reporte d in progress reports at the lime the progress report is co m pleted.

    We agree \.\ ith the recomme nda tio n . We wi ll coordinate w ith NMCSAP to devel o p
    po licies and procedures to main ta in s upporting documents fo r in formati on repo rted in
    prog ress repurts at the time the p rogress report is co m p le ted .




                                                    3




                                                 58

     l~)   En sure grants arc closed ou t in a timely   m~mner   and in accordance with the 2012
           OVWFinancial Grants      M~lDagement    Cuide.

           We agree w ith the recommendation. We will coordinate with MCSAP to ensure grants
           are closed o ut in a time l) manner and in accordance with the 2012 OVW Financ ial
           G rams M anagement Guide.



We app reciate the o pportun ity to review a nd conunent on the draft report. If you have any
ques tions or require add itional in formation. please contact Rod ney Samuels of my staff at
(202) 514-9820

cc    Angela ""ood
      A":\2ounting Offic<: r
      Office on Violence Agains t Women (OVW)

      Loui se M. Duhamel , Ph .D.
      Act ing Ass is ta nt Director
      A udit Liaison Group
      Justice l\4anagcme nt Di'\ isiol1

       Kimberly Wood ard
       Program S peci a list
       Office o n V iolence Against Women




                                                    4




                                                 59

                                                             APPENDIX VI

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of this audit
report to the Office on Violence Against Women (OVW) and to the New
Mexico Coalition of Sexual Assault Programs, Inc. (NMCSAP). OVW response
is incorporated in Appendix V and NMCSAP response is incorporated in
Appendix IV of this final report. The following provides the OIG analysis of
the responses and summary of actions necessary to close the report.

Analysis of NMCSAP Response

      In response to our audit report, NMCSAP made the following general
statements that we believe need to be addressed. On page 40 of this
report, NMCSAP stated that it has “created or revised and implemented
more robust personnel policies and procedures, board by-laws, financial
procedures including contract development and approval, and timesheet
review and approval. The implementation of these internal controls resulted
in a successful 2012 audit with minimal findings.”

      It should be noted that, although the Fiscal Year (FY) 2012 single audit
reported an unqualified opinion on financial reporting, the single audit
reported a qualified opinion regarding compliance with requirements that
could have a direct and material effect on each major program and on the
internal control over compliance in accordance with Office of Management
and Budget (OMB) Circular A-133.

       In addition, the independent auditors also identified 11 findings in the
FY 2012 single audit report that indicate that NMCSAP has not developed a
financial management infrastructure and procedures necessary to ensure
that it adheres to all state and federal grant guidelines. A majority of the
FY 2012 single audit findings were applicable to DOJ funds and align with the
findings reported in this audit report.

     Further, many of the findings in the FY 2012 single audit report are
repeat findings reported in the FYs 2010 and 2011 single audit reports for
which, the independent auditors reported a disclaimer of opinion. For these
reasons, in our judgment NMCSAP should continue to develop a financial
management infrastructure and procedures necessary to ensure that it
adheres to all state and federal grant guidelines.


                                      60

      Additionally, on page 41 of this report NMCSAP stated in its response
that the OJP financial guide does not require a GAN or preapproval for
subcontractors that provide goods and services. During the course of our
audit we determined that subcontractors had been authorized for Grant
No. 2010-WL-AX-0003 who had not been identified in the original approved
budget. This is contrary to the 2011 OJP Financial Guide, which states that
“a GAN is required when authorizing the use of a subcontractor or other
organization that was not identified in the original grant budget.” The
NMSCAP goes on to reference page 47 of the 2012 OVW Financial Guide
which states that a GAN is required when a contract is for work that is
“central to the purposes of the grant.” NMSCAP states that the challenged
contracts are not central to the purpose of the grant, but rather supportive
services. NMSCAP states that the Guide specifically notes that general
support services are not subject to the GAN requirement (unless the rate of
compensation exceeds federal pre-approved rates of compensation).

       We do not agree with NMCSAP’s interpretation of the criteria
mentioned in its response. Of the contracts in question, 23 were awarded
prior to the issuance of the 2012 OVW Financial Management Guide.
Therefore, the criteria that are applicable to those contracts are contained in
the 2011 OJP Financial Guide, which states that “a GAN is required when
authorizing the use of a subcontractor or other organization that was not
identified in the original grant budget.” For the remaining 7 contracts,
NMCSAP’s interpretation of the criteria is also incorrect because the 2012
OVW Financial Management Guide also states that “examples for instances
where prior approval would be required, included authorizing the use of a
subcontractor or other organization that was not identified in the original
approved budget, or contracting for or transferring of grant-supported
efforts.”

       Regardless of whether contractors performed services related to the
substance of the grant work, or “central to the purposes of the grant,” the
criteria requires that a GAN be submitted for contractors or other
organizations that were not identified in the approved budget. Therefore,
we stand by our determination that a GAN was required for unallowable
expenses associated with contractors that were not in the approved grant
budget.

Summary of Actions Necessary to Close the Report

   1.	 Resolved. OVW concurred with our recommendation to develop
       policies and procedures to ensure conflicts of interests are avoided
       and fair hiring and contracting practices are followed. OVW stated in
       its response that it will coordinate with NMCSAP to develop policies


                                      61

and procedures to ensure conflicts of interests are avoided and fair
hiring and contracting practices are followed.

In its response on page 41 of this report, NMSCAP stated that
“NMCSAP disagrees that there are conflicts of interest and that fair
hiring and contracting practices were not followed. All positions both
contract and full and part-time employees, are hired by the Executive
Director.” NMSCAP further states that, “... although the individual
identified within the OIG draft audit report does have a private
consulting company, this individual has never been paid for grant
writing or grant management services as a member of that
company.”

Although NMSCAP stated that it did not pay the Project Director’s
company for grant writing or grant management services. In our
opinion, owning a company that provides grant writing and grant
management services, while also being a full-time employee of
NMCSAP gives the appearance of a conflict of interest. In addition,
the Project Director is using her position with NMCSAP as an
advertising tool for her private consulting company. For example,
the Project Director’s company website states that for NMCSAP, the
company’s “staff works intimately with NMCSAP to help plan,
coordinate and evaluate numerous award winning regional and
statewide trainings.” Also, on the company’s website we noted that
the activities this company performed in association with NMCSAP
align with the goals and objectives of Grant No. 2007-WR-AX-0085.

In its response on page 42 of this report, NMCSAP also stated that,
“Because New Mexico is a rural state with limited funding resources
and human resources, word of mouth is an effective recruitment tool
for small non-profit organizations that do not have an advertising
budget.” This statement by NMCSAP does not address the
appearance of a conflict of interest matter that we discovered during
our audit, which is more fully discussed on page 8 of this audit
report. During the hiring process, the Project Director informed the
Project Assistant that even though NMCSAP position would be
part-time, it was possible for the Project Director to also hire the
Project Assistant through the Project Director’s company. Since
2005, the Project Assistant has worked for both the Project Director’s
company and NMCSAP. In our judgment, hiring the Project Assistant
under these circumstances gave the appearance of a conflict of
interest.




                              62

    In addition, we maintain that awarding contracts to the Project
    Director’s spouse is a conflict of interest. As stated on page 13 of
    our audit report, we identified three contracts awarded to the Project
    Director’s spouse for Grant No. 2007-WR-AX-0085. In its response,
    NMCSAP states that the Project Director’s spouse was hired and
    supervised as a contractor by the Executive Director not the Project
    Director. However, based on OVW approved budget descriptions, the
    Project Director is responsible for providing management and
    oversight of the program for Grant No. 2007-WR-AX-0085, not the
    Executive Director.

    NMCSAP also stated that the Project Director’s spouse had worked as
    a volunteer for NMCSAP and assisted with writing the grant
    application. In our opinion, volunteer hours, pro bono services, and
    assisting with writing the grant application does not justify awarding
    a non-competitive contract. In fact, it further supports that there
    was a conflict of interest since the Project Director and the Project
    Director’s spouse were involved in writing the grant application that
    included contracts intended for the Project Director’s spouse. Based
    on the existence of an appearance of a conflict of interest between
    the contractor and the Project Director, we determined that these
    expenses were unallowable.

    In addition, the NMSCAP states that “the Project Director has a
    permanent disability as defined by the Americans with Disabilities
    Act. In addition to the duties provided in support of Grant
    No. 2007-WR-AX-0085, the Project Director’s spouse also traveled
    with her as a reasonable accommodation under the ADA.” It should
    be noted that the questioned contracts awarded to the Project
    Director’s spouse were not related to compensating the spouse for
    traveling with the Project Director to provide a reasonable
    accommodation under the ADA.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has developed policies and procedures
    to ensure conflicts of interests are avoided and fair hiring and
    contracting practices are followed.

2.	 Resolved. OVW concurred with our recommendation to remedy the
    $91,051 in unsupported excess drawdowns. OVW stated in its
    response that it will coordinate with NMCSAP to remedy the $91,051
    in unsupported excess drawdowns.




                                  63

    Along with NMCSAP’s response to the draft report, the officials
    provided the same “Expense Breakdown” that was provided
    previously on January 31, 2013. In addition, NMCSAP officials
    provided a spreadsheet containing payroll entries for the Project
    Director and Project Assistant. These documents included contractor
    and subgrantee transactions totaling $5,421 and payroll transactions
    totaling $50,833 that were dated prior to the start of our audit but
    were not on the original accounting records provided to us, and
    duplicated payroll transactions in the amount of $119,250. Since the
    additional transaction information provided by NMCSAP contains new
    expense and payroll information, and given the payroll deficiencies
    identified in this audit report, we could not accept these transactions
    as allowable or supported without reviewing the supporting
    documentation. We still consider the $91,051 in excess drawdowns
    as unsupported.

    This recommendation can be closed when we receive evidence
    that OVW has remedied the $91,051 in unsupported excess
    drawdowns.

3.	 Resolved. OVW concurred with our recommendation to develop
    policies and procedures to ensure that cumulative drawdowns do not
    exceed cumulative expenditures. OVW stated in its response that it
    will coordinate with NMCSAP to develop policies and procedures to
    ensure that cumulative drawdowns do not exceed cumulative
    expenditures.

   NMCSAP agreed with our recommendation stating in its response that
   “[w]hile all drawdowns for each grant in question have been based on
   ‘cost reimbursement’ practice, NMCSAP agrees that a more formal
   means of maintaining the documentation was necessary.” NMCSAP
   went on to say that the full-time accountant has developed a monthly
   draw down schedule based on direct, documentable existing
   expenditures.

    However, no documentation of policies and procedures were provided
    and we disagree with NMCSAP’s statement that “all drawdowns for
    each grant in question have been based on ‘cost reimbursement’
    practice.” During our audit, we received documentation from
    NMCSAP for a drawdown request submitted on September 13, 2011,
    for Grant No. 2007-WR-AX-0085, which requested a drawdown in
    advance rather than on the cost reimbursement practice.
    Additionally, as mentioned on page 10 of this audit report, for Grant
    No. 2007-WR-AX-0085 NMCSAP was cumulatively overdrawn by


                                  64

    $91,051. Our review of the accounting records found that NMCSAP
    has been overdrawn by varying amounts for the life of Grant
    No. 2007-WR-AX-0085, meaning that cumulatively drawdowns were
    not based on the cost reimbursement practice.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has developed policies and procedures
    to ensure that cumulative drawdowns do not exceed cumulative
    expenditures.

4.	 Resolved. OVW concurred with our recommendation in the draft
    report to remedy the $690,782 in unallowable contract and subgrant
    expenditures and the $2,688 in unsupported contract expenditures.
    OVW stated in its response that it will coordinate with NMCSAP to
    remedy the $690,782 in unallowable contract and subgrant
    expenditures and the $2,688 in unsupported contract expenditures.

    In response to the draft report, NMCSAP did not agree that there was
    $2,688 in unsupported contract expenditures for Grant
    No. 2007-WR-AX-0085. NMCSAP provided documentation supporting
    the $2,688 in unsupported contract costs identified for Grant No.
    2007-WR-AX-0085. As a result, for the recommendation related to
    contract and subgrant costs in the final report, we removed the
    $2,688 in unsupported contract expenditures. Therefore, in the final
    report we recommend that OVW remedy the $690,782 in unallowable
    contract and subgrant expenditures.

    NMCSAP did not agree with our recommendation to remedy the
    $690,782 in unallowable contract and subgrant expenditures. In its
    response, on pages 43 and 44 of this report, NMCSAP stated that it
    provided contracts and subgrant expenditures to the auditors in
    support of these costs and that prior to 2012, NMCSAP’s practice was
    to send and receive contracts via electronic communication and to
    accept electronic signatures. NMCSAP further stated that it has
    implemented more formalized, structured contract development,
    distribution and approval processes that require an original signature.
    However, no documentation of policies and procedures were
    provided.

    Also, as stated on page 11 of this report, we identified 14 contracts
    and 4 subgrants that did not include signatures from the contractor
    or subgrantee for Grant No. 2007-WR-AX-0085. Unsigned contracts
    and subgrants are not valid agreements. Contracts and subgrants
    should be signed by the contractor or subgrantee and NMCSAP to


                                  65

fully document the agreement between the parties. In response to
the draft report, no further documentation was provided by NMCSAP
supporting that the contracts and subgrants had been signed by the
contractors or subgrantees either electronically or by hard copy for
Grant No. 2007-WR-AX-0085. In addition, on page 44 of this report
NMCSAP states that it believes the contract for the company
specializing in Native American Indigenous Performing Arts is an
allowable cost because it is directly related to the goals and
objectives for Grant No. 2007-WR-AX-0085. However, NMCSAP
agreed that this contract was not properly executed and that it has
implemented new procedures and processes to ensure that contracts
are properly created with original signatures. We did not question
the allowability of the contract for the company specializing in Native
American Indigenous Performing Arts based on its grant goals and
objectives. This contract did not have a signature and was therefore
an invalid agreement for which the costs were questioned. As a
result, the expenses related to contracts and subgrants without
signatures by all parties are unallowable expenditures.

Additionally, in its response, NMCSAP discussed the spouse of the
Project Director for Grant No. 2007-WR-AX-0085. As previously
discussed in our response to recommendation 1, the appearance of a
conflict of interest between the contractor and the Project Director
over the grant exists. We found no evidence that NMCSAP notified
OVW of the possible conflict of interest, in fact NMCSAP agrees that it
did not notify OVW of this possible conflict of interest. In addition,
the contracts were not competitively bid. Therefore, we determined
that these expenses were unallowable.

In its response, on page 45 of this report, NMCSAP stated that it
believes that the expenditures related to 2010-WL-AX-0003 (LAV)
were allowable per GAN requirements and therefore a remedy is
unnecessary. NMCSAP further discussed the questioned contract
costs on pages 51 through 53 of this report, stating that the
unallowable contract costs in the amount of $17,298 do not exceed
the contractual budget category allocation of funds, and does not
amount to 10 percent of the total award, so the need for a GAN is not
triggered. NMCSAP further stated that there was no change in the
scope of the project as all legal services by any lawyer in any
jurisdiction are contingent upon adequate investigation by counsel.
NMCSAP notes that a failure to do so can lead to being sanctioned for
taking legal action without adequate basis and that expenses
associated with investigation… and with discovery… are services



                              66

which are essential to the holistic representation of clients in the
particular cases where they were utilized.

As mentioned previously, the OJP Financial Guide and 2012 OVW
Financial Grants Management Guide require a GAN to document any
programmatic, administrative, or financial change, modification,
adjustment, or correction associated with a grant award. This
includes contractors, subcontractors or other organizations that were
not identified in the approved budget. This applies regardless of the
10 percent rule and is required for the additional expenses to be
considered allowable.

On page 52 of this report, NMCSAP stated for Grant
No. 2010-WL-AX-0003 “The Project Director works remotely for the
Coalition from another state. There is not total redundancy in record
keeping of contracts at the two sites. When the Project Director did
not have a hard copy of the contract, she called the contractor and
got telephonic approval.” NMCSAP had previously provided a copy of
the contracts that were approved by phone. However, as mentioned
on page 12 of our audit report, unsigned contracts are not valid
agreements and all contracts should be signed by the contractor to
fully document the contract’s agreement between the parties.
Therefore, the expenses related to contracts without signatures are
unallowable.

On page 52 of this report, NMCSAP stated for Grant
No. 2010-WL-AX-0003 that one contractor “…did not have a
computer, fax, or scanner when she was hired. She forwarded the
contract as soon as she had access to a fax machine.” As mentioned
on page 12 of our audit report, the expenses that are outside the
terms of the contract, including those incurred before the contract
was signed and provided to NMCSAP are unallowable.

On page 52 of this report, NMCSAP stated for Grant
No. 2010-WL-AX-0003 that one contractor “fronted the expense of a
process server’s fee in an instance when the need for professional
service on an evasive witness for an Order for Protection case came
up suddenly and our invoicing process would not have provided the
required fee in time for the hearing.” However, no further
documentation was provided and this expense was in excess of the
approved contracts. As mentioned on page 12 of our audit report,
expenses that are outside the terms of the contract, including those
in excess of an approved contract are unallowable.



                               67

    On page 53 of this report, NMCSAP stated for Grant
    No. 2010-WL-AX-0003 that the private investigator “…was necessary
    to engage to comply with the legal requirement to fully investigate a
    claim prior to filing any legal action. Facilitating investigation is
    mentioned in the grant narrative.” As mentioned on page 12 of our
    audit report, the OJP Financial Guide and 2012 OVW Financial Grants
    Management Guide require a GAN to document any programmatic,
    administrative, or financial change, modification, adjustment, or
    correction associated with a grant award. This includes authorizing a
    subcontractor for work that was not identified in the original
    approved budget. The appropriate GAN was not submitted, and we
    question the unapproved expenses as unallowable. Additionally, for
    this contractor, we identified $164 in expenses that were incurred
    before the contract was awarded and signed. However, the $164
    was already questioned as unallowable expenses that were not
    budgeted or approved in a GAN.

    On page 53 of this report, NMCSAP stated for Grant
    No. 2010-WL-AX-0003 the expert on cognitive and developmental
    disability was used to interview a client with a communication
    disorder “in order to assert her victim rights in the criminal justice
    process” and according to NMCSAP “His rate is quite conservative for
    his professional stature.” For this contractor, the appropriate GAN
    was not submitted, and we question the unapproved expenses as
    unallowable because subcontractor work was not identified in the
    original approved budget.

    Finally, for Grant No. 2010-WL-AX-0003 NMCSAP provided a
    supplemental contract that was not previously provided during our
    audit and provided a signed contract that was provided during our
    audit but was approved by phone. These signed contracts remedy
    the $8,973 that we previously questioned as unallowable because
    expenses were in excess of the approved contract, and the $4,802
    that we previously questioned as unallowable because the contract
    was approved by phone and was not a valid contract. We
    determined that the documentation related to these two signed
    contracts, adequately addressed our recommendation and therefore
    closed $13,775 in unallowable questioned costs. The remainder of
    this recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has remedied the $677,007 in
    unallowable contract and subgrant expenditures.

5.	 Resolved. OVW concurred with our recommendation to develop
    policies and procedures for adequate monitoring of contractors and


                                  68

    subgrantees. OVW stated in its response that it will coordinate with
    NMCSAP to develop policies and procedures for adequate monitoring
    of contractors and subgrantees.

    NMCSAP agreed with our recommendation and on pages 45 and 46
    of this report, stated that it has revised all Coalition policies as of
    March 2012 to strengthen its monitoring of contractors and
    subgrantees and provided examples of the requirements that are
    included in the policies. NMCSAP also agreed that it needs to
    enhance its current monitoring of contractors and subgrantees and
    stated that NMCSAP staff will work with OVW, subgrantees, and
    contractors to enhance its current monitoring processes and
    procedures which will include a review of financial documentation.
    For Grant No. 2010-WL-AX-0003, NMCSAP repeated that monitoring
    of contractors and subgrantees is conducted through personal
    observation of the delivery of services, client feedback, and
    continuous mentoring by the project staff.

    However, no documentation of policies, procedures, or processes
    were provided. As mentioned on page 13 of our audit report, for
    Grant Nos. 2007-WR-AX-0085 and 2010-WL-AX-0003, NMCSAP
    officials described some programmatic contract and subgrant
    oversight, but we did not find any indication of financial oversight
    and identified related deficiencies during our audit, including
    contracts with missing signatures, expenses outside of the approved
    budget or contract, a missing contract, and the appearance of a
    conflict of interest. Additionally, when we requested the supporting
    documentation for some contract expenses, it was necessary for
    NMCSAP officials to obtain the documentation from the contractor
    because they had not received the support from the contractors
    previously.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has developed policies and procedures
    for adequate monitoring of contractors and subgrantees.

6.	 Resolved. OVW concurred with our recommendation to develop
    policies and procedures to maintain complete and approved
    timesheets with original signatures, and ensure that paychecks are
    issued after completion and verification of all employee time for the
    pay period. OVW stated in its response that it will coordinate with
    NMCSAP to develop policies and procedures to maintain complete
    and approved timesheets with original signatures, and ensure that



                                   69

    paychecks are issued after completion and verification of all
    employee time for the pay period.

    In response to our recommendation, on page 46 of this report,
    NMCSAP stated that personnel policies and procedures were revised
    to insure [sic] that employees provide timely documentation prior to
    obtaining a paycheck. NMCSAP also stated that the accountant has
    instituted electronic direct deposit as a means to ensure that all
    timesheets are completed and reviewed in a timely manner for state
    fiscal year 14 (July 1 2013-June 30 2014). Finally, NMCSAP noted
    that a new timesheet was instituted in July 2012 to better capture
    grant hours each pay period. However, no documentation of policies
    and procedures were provided.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has developed policies and procedures
    to maintain complete and approved timesheets with original
    signatures, and ensure that paychecks are issued after completion
    and verification of all employee time for the pay period.

7.	 Resolved. OVW concurred with our recommendation to remedy the
    $73,359 in questioned payroll costs, including $54,683 in
    unsupported personnel expenditures, $5,730 in unallowable
    personnel expenditures, $10,354 in unsupported fringe benefit
    expenditures, and $2,592 in unallowable fringe benefit expenditures.
    OVW stated in its response that it will coordinate with NMCSAP to
    remedy the $73,359 in questioned payroll costs, including $54,683 in
    unsupported personnel expenditures, $5,730 in unallowable
    personnel expenditures, $10,354 in unsupported fringe benefit
    expenditures, and $2,592 in unallowable fringe benefit expenditures.

    NMCSAP did not agree with our recommendation and stated, on page
    51 of this report that for Grant No. 2010-WL-AX-0003, questioned
    payroll costs relate to a substitution of an accountant for the
    Executive Director when an accountant position was filled and the
    Executive Director was able to transfer the financial management
    duties to the accountant. NMCSAP noted that the approved grant
    budget provided for financial management staff costs. NMCSAP
    further stated that the $2,605 cited on page 14 as unsupported
    personnel costs, relate to employees who were released from
    employment for failure to provide timesheets and that knowledge of
    their accomplished work is reflected in appearances in court, client
    feedback, and written work product. Finally, NMCSAP stated that



                                  70

employee time is monitored by timesheet, supported by either hard
copy records of client services, or database time records.

However, as described on pages 14 and 15 of our audit report, for
Grant No. 2010-WL-AX-0003, we identified $2,605 in unsupported
personnel costs for the current Executive Director, and two previous
Project Attorneys; and $16 in unsupported fringe benefit costs for the
current Executive Director. These questioned costs were not
supported by timesheets, therefore we disagree with NMCSAP’s
response that “employee time is monitored by timesheet, supported
by either hard copy records of client services, or database time
records,” because no documentation was provided. According to the
OJP Financial Guide and 2012 OVW Financial Grants Management
Guide personnel and payroll records shall include the time and
attendance reports for all individuals reimbursed under the award.
Additionally, for Grant No. 2010-WL-AX-0003, we identified $1,150 in
unallowable personnel costs paid to the Accountant, and $154
unallowable fringe benefit costs paid to the current Executive
Director and Accountant. The grant budget approved personnel costs
for the Executive Director for grant management and allowed some
fringe benefits, excluding health insurance. Even though the
Accountant replaced the Executive Director, the accountant position
was not approved in the grant budget and an appropriate GAN was
not submitted. Therefore, we question the related personnel and
fringe benefit costs for this position as unallowable. Additionally,
because the grant budget did not approve the Executive Director’s
health insurance and an appropriate GAN was not submitted; we
questioned the Executive Director’s health insurance expenses as
unallowable. NMCSAP stated that it will provide documentation to
OVW detailing all other questioned costs.

Also, in its’ response, NMCSAP stated that they had attached
timesheets for a portion of the questioned personnel costs. The
timesheets mentioned pertained to Grant No. 2007-WR-AX-0085 and
Cooperative Agreement No. 2011-EW-AX-K004. After review of the
timesheets, we noted that the majority of the timesheets mentioned
were provided earlier in the audit. The remaining timesheets did not
support the allocation of salary payments noted in the grant and
cooperative agreement accounting records. Therefore, we still
consider these personnel costs to be unsupported.

Additionally, based on NMCSAP’s response on page 48 and
documentation provided for recommendation 9 of this report
regarding health benefit options it provided to staff prior to 2013, the


                               71

    recommendation related to unsupported fringe benefit costs was
    reduced by $1,200, and the unallowable fringe benefit costs was
    increased by $1,200. As a result, the total questioned payroll costs
    did not change; however, we found that, NMCSAP paid $9,154 in
    fringe benefit expenses that were not supported and $3,792 in fringe
    benefit expenses that were not allowable.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has remedied the $73,359 in questioned
    payroll costs, including $54,683 in unsupported personnel
    expenditures, $5,730 in unallowable personnel expenditures,
    $9,154 in unsupported fringe benefit expenditures, and $3,792 in
    unallowable fringe benefit expenditures.

8.	 Resolved. OVW concurred with our recommendation to remedy the
    $375,939 in unallowable compensation for multiple full-time salaries
    paid to the same employees. OVW stated in its response that it will
    coordinate with NMCSAP to remedy the $375,939 in unallowable
    compensation for multiple full-time salaries paid to the same
    employees.

    NMCSAP did not agree with our recommendation and on page 47 of
    this report, stated that all positions and the individuals filling those
    positions were included in the grant proposal budget and budget
    narratives that were submitted and approved by OVW. NMCSAP
    further stated that these positions were neither identified nor scoped
    as full time positions within the proposal and were in fact reported as
    part-time positions on all OVW approved semi-annual reports since
    2007. NMCSAP also stated that it has been transparent in its
    identification of individuals who are performing grant tasks. As an
    example of this, it stated that when Grant No. 2011-EW-AX-K004 was
    awarded, the Project Director contacted OVW Grant Manager and
    requested that the salary that was awarded in the grant be
    reallocated and shared between the Project Director and the Project
    Assistant and a GAN was submitted and approved. NMCSAP provided
    documentation of this GAN.

    As mentioned on page 17 of our audit report, the budgets did not
    indicate that the positions were part-time and in our judgment,
    based on the budgeted amounts, the positions appeared to be
    full-time salaries. Additionally, NMCSAP provided a FY 2013 salary
    breakdown by funding source, which showed the Project Director and
    Project Assistant being paid what we consider full-time positions for
    both Grant No. 2007-WR-AX-0085 and Cooperative Agreement


                                   72

    No. 2011-EW-AX-K004, and the Project Director and Project
    Assistant were also being paid by a third funding source. Further,
    progress reports are not part of the grant budgeting process and are
    not used to establish a grant budget. However, we reviewed the
    progress reports for Grant No. 2007-WR-AX-0085 and there was no
    indication that these positions were reported as part-time positions.
    Finally, the GAN submitted on March 20, 2012, for Cooperative
    Agreement No. 2011-EW-AX-K004 re-allocated the Project Director’s
    salary to both the Project Director and Project Assistant. However,
    there is no mention of any time allocation for these positions in the
    GAN. Therefore, we still consider the compensation for multiple full-
    time salaries paid to the same employees to be unallowable.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has remedied the $375,939 in
    unallowable compensation for multiple full-time salaries paid to the
    same employees.

9.	 Resolved. OVW concurred with our recommendation to remedy the
    $92,920 in unsupported other direct costs and $46,253 in
    unallowable other direct costs. OVW stated in its response that it will
    coordinate with NMCSAP to remedy the $92,920 in unsupported
    other direct costs and $46,253 in unallowable other direct costs.

    NMCSAP did not agree with our recommendation and provided
    additional documentation for some of the questioned costs for Grant
    No. 2007-WR-AX-0085 and Cooperative Agreement
    No. 2011-EW-AX-K004. The documentation included training
    documents and additional receipts including documentation
    supporting $19,934 in questioned costs for Grant
    No. 2007-WR-AX-0085 and $3,217 in questioned costs for
    Cooperative Agreement No. 2011-EW-AX-K004. As a result, the
    recommendation in our final report related to unsupported direct
    costs was reduced by $23,151 ($19,934 for Grant
    No. 2007-WR-AX-0085 and $3,217 for Cooperative Agreement
    No. 2011-EW-AX-K004). NMCSAP also discussed health benefits in
    its response to this recommendation; however, the questioned costs
    related to health benefits are discussed in recommendation 7.

    Additionally, NMCSAP provided documentation for the Train the
    Trainer training event, the printing payment, and the DOJ Rural
    Grant meeting. However, we determined that the supporting
    documentation provided by NMCSAP was inadequate. Specifically,
    the receipts provided for the Train the Trainer training event did not


                                  73

    correspond to the transactions in the accounting records and we
    could not reconcile the receipt charges to the accounting records.
    The documentation did not support a staff member’s payment to the
    printing vendor and receipts were not provided for the DOJ Rural
    Grant meeting. Therefore, we still consider these costs unsupported.
    Finally, the National Professional Training Conference on Responding
    to Crime Victims with Disabilities was not approved in the grant
    budget or by the submission of an appropriate GAN, and the Project
    Director was paid a salary in addition to the contractor pay she
    received for this conference. As a result, we still consider these costs
    to remain unallowable. NMCSAP stated that it will provide
    documentation to OVW detailing all other questioned costs.

    On page 52 of this report, NMCSAP stated for Grant
    No. 2010-WL-AX-0003 the video-taped depositions were
    unanticipated because discovery for this kind of hearing is not a
    typical expense, but as it involves safety, it is done on an expedited
    timeline without the minimum time for a GAN. Additionally,
    NMCSAP’s response also stated that one expense was for advertising
    the Legal Advocate positions in rural areas. However, video
    depositions and advertising for positions were not approved in the
    grant budget and the appropriate GANs were not submitted.
    Therefore, we still consider these costs to be unallowable.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has remedied the $69,769 in remaining
    unsupported other direct costs and $46,253 in unallowable other
    direct costs.

10.	 Resolved. OVW concurred with our recommendation to develop
     policies and procedures to document expenses as properly
     authorized, expenses are accurately recorded and classified in the
     accounting records, receipts are maintained for all grant and
     cooperative agreement credit card purchases, and the general ledger
     entries are detailed enough to trace expenditures to supporting
     documentation. OVW stated in its response that it will coordinate
     with NMCSAP to develop policies and procedures to document
     expenses as properly authorized, expenses are accurately recorded
     and classified in the accounting records, receipts are maintained for
     all grant and cooperative agreement credit card purchases, and the
     general ledger entries are detailed enough to trace expenditures to
     supporting documentation.




                                  74

    NMCSAP neither agreed nor disagreed with this recommendation and
    stated, on page 49 of this report, that, “Policies and procedures are
    now in active practice to document that all expenses are properly
    authorized, expenses are accurately recorded and classified in the
    accounting records, receipts are maintained for all grant and
    cooperative agreement credit card purchases, and the general ledger
    entries are detailed enough to trace expenditures to supporting
    documentation.” However, no documentation of policies and
    procedures were provided.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has developed policies and procedures
    to document expenses as properly authorized, expenses are
    accurately recorded and classified in the accounting records, receipts
    are maintained for all grant and cooperative agreement credit card
    purchases, and the general ledger entries are detailed enough to
    trace expenditures to supporting documentation.

11.	 Resolved. OVW concurred with our recommendation to develop
     policies and procedures to ensure the accuracy of FFRs and maintain
     documentation to support FFRs. OVW stated in its response that it
     will coordinate with NMCSAP to develop policies and procedures to
     ensure the accuracy of FFRs and maintain documentation to support
     FFRs.

    NMCSAP neither agreed nor disagreed with this recommendation and
    stated, on page 49 of this report, that FFR’s are scheduled on the
    accountant’s wall calendar, and computer calendar with a phone
    reminder. NMCSAP also stated that amounts recorded on the FFR’s
    match exactly the amounts on the accounting sheets generated from
    NMCSAP accounting program. However, no documentation of
    policies and procedures were provided.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has developed policies and procedures
    to ensure the accuracy of FFRs and maintain documentation to
    support FFRs.

12.	 Resolved. OVW concurred with our recommendation to develop
     policies and procedures to ensure timely submissions of progress
     reports. OVW stated in its response that it will coordinate with
     NMCSAP to develop policies and procedures to ensure timely
     submissions of progress reports.



                                  75

    NMCSAP neither agreed nor disagreed with this recommendation and
    stated, on page 49 of this report, that “[f]or 2010-SW-AX-0026
    (GTC) the Executive Director has included progress report reminders
    on her phone and computer to insure [sic] timely delivery of all
    reports in the future.” However, no documentation of policies and
    procedures were provided.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has developed policies and procedures
    to ensure timely submissions of progress reports.

13.	 Resolved. OVW concurred with our recommendation to develop
     policies and procedures to maintain supporting documents for
     information reported in progress reports at the time the progress
     report is completed. OVW stated in its response that it will
     coordinate with NMCSAP to develop policies and procedures to
     maintain supporting documents for information reported in progress
     reports at the time the progress report is completed.

    NMCSAP agreed that methods for supporting documentation on all
    grants and cooperative agreements need to be enhanced and
    monitored more closely. NMCSAP further stated, on pages 49 and
    50 of this report, that the “[n]ew procedures have been implemented
    to provide more qualitative and quantitative data to support the
    semi-annual reports. This documentation will be uploaded each
    month on the GMS system as an accompaniment to the progress
    report. Additionally, all project directors will keep a file of supporting
    documentation that will be maintained for each Progress Report
    submitted.” However, no documentation of policies and procedures
    were provided.

    Additionally on pages 53 through 55 of this report, NMCSAP stated
    that for Grant No. 2010-WL-AX-0003 “Nineteen of the questioned
    items for progress reporting show documentation of services
    exceeding that which was reported.” NMCSAP further stated that
    “This disparity is explained by periodic updates to client records
    which change the ‘count’ retroactively within our database,” which is
    also stated in our audit report. However, as stated on page 23 of our
    audit report, NMCSAP officials stated that variances in the progress
    report information reflects data that occurred after the progress
    report was issued. In its response, NMCSAP also provided additional
    claims of accomplishments that should have been provided to the
    OIG during the verification of progress report data. However, in
    reviewing these claims of accomplishments, we determined that the


                                   76

    information in these claims were already included in the
    documentation previously provided, in some instances contradicted
    previously provided information, and no supporting documentation
    was provided to support these claims.

    This recommendation can be closed when we receive documentation
    demonstrating that NMCSAP has developed policies and procedures
    to maintain supporting documents for information reported in
    progress reports at the time the progress report is completed.

14.	 Resolved. OVW concurred with our recommendation to ensure
     grants are closed out in a timely manner and in accordance with the
     2012 OVW Financial Grants Management Guide. OVW stated in its
     response that it will coordinate with NMCSAP to ensure grants are
     closed out in a timely manner and in accordance with the 2012 OVW
     Financial Grants Management Guide.

    NMCSAP neither agreed nor disagreed with this recommendation. In
    its response, on page 50 of this report, NMCSAP stated that, a grant
    was not closed out in a timely manner only once following a very
    long run of a Grants to Coalition OVW grant. NMCSAP stated that it
    was not accustomed to the change from a continuation grant to an
    annual grant and that the Executive Director will follow all federal
    grants closely each year to insure [sic] that all grants are properly
    closed out in a timely fashion.” However, no evidence was provided
    to ensure grant closure in a timely manner and in accordance with
    the 2012 OVW Financial Grants Management Guide.

    This recommendation can be closed when we receive documentation
    demonstrating that grants awarded to NMCSAP are closed out in a
    timely manner and in accordance with the 2012 OVW Financial
    Grants Management Guide.




                                 77

